No. 20-____
In the

Supreme Court of the United
States
________________

DR. FAYSAL KHALAF,
Petitioner,
v.
FORD MOTOR COMPANY,
BENNIE FOWLER, and JAY ZHOU,
Respondents.
________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
________________
PETITIONER'S APPENDIX
________________
C. Mark Pickrell
111 Brookfield Avenue
Nashville, Tennessee 37205
mark.pickrell@pickrell.net
(615) 356-9316

Counsel of Record for Petitioner,
Dr. Faysal Khalaf

TABLE OF CONTENTS
OPINION OF THE DISTRICT COURT …………..…………………. 1
OPINION OF THE COURT OF APPEALS ….……………………...25
JURY VERDICT FORM ….......………………………………………. 78
COURT OF APPEALS ORDER DENYING REHEARING…….... 82

i

IN THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
FAISAL1 KHALAF, Ph.D.,

)
)
Plaintiff,
)
)
v.
)
)
FORD MOTOR CO., BENNIE
)
FOWLER, JAY ZHOU,
)
)
Defendants.
)
____________________________________)

No. 15-12604

ORDER GRANTING IN PART AND DENYING IN PART
DEFENDANTS' REVISED POST VERDICT MOTION
Attorneys and Law Firms
Carol A. Laughbaum, Raymond J. Sterling, Sterling Attorneys at Law,
Bloomfield Hills, MI, for Plaintiff.
Elizabeth P. Hardy, Shannon V. Loverich, Thomas J. Davis, William B.
Forrest, Kienbaum Hardy Viviano Pelton & Forrest, P.L.C., Birmingham, MI,
for Defendant.
MARIANNE O. BATTANI, United States District Judge
This matter is before the Court on Defendants' post verdict motion.
Defendants Ford Motor Company (“Ford”), Bennie Fowler, and Jay Zhou ask
the Court to Set Aside the Verdict Under Rule 58(b) and Rule 59(d), or in the
Alternative Grant Judgment as a Matter of Law Under Rule 50(b), for a New
Trial under Rule 59(a), to Alter or Amend the Judgment Under Rule 59(e)
and for Remittitur (ECF No. 102). For the reasons that follow, the Court
GRANTS in part and DENIES in part the motion.
N.B. "Faisal" and "Faysal" are equivalent English translations of the same Arabic name.
Dr. Khalaf prefers the English spelling, "Faysal," which is used in this cert. petition.
1

1

I. PROCEDURAL BACKGROUND
On March 28, 2018, following an eleven day trial, the jury entered a
verdict in favor of Plaintiff, Faisal G. Khalaf, on his claims of (i) a hostile
work environment based on his national origin or race, as to Fowler, and
Plaintiff's subordinates; (ii) retaliation against his engagement in protected
activity by Fowler, Zhou, and Ford. Specifically, the jury concluded that
Plaintiff proved (a) retaliatory demotion by Fowler and Ford; (b) a retaliatory
Performance Enhancement Plan (“PEP”) by Zhou; and (c) retaliatory
termination by Ford. Plaintiff did not prevail on his claims that he was
demoted and terminated because of his national origin or his race. (See ECF
No. 74, Jury Verdict Form, Question No. 1 (Discrimination-National Origin),
Question 2 (Discrimination-Race)). In addressing Question 3 on the Jury
Verdict Form, (Hostile Environment-Subordinates), the jury found that
Khalaf proved he was subjected to a severe or pervasive hostile environment
by his subordinates based on his national origin or race. (See ECF No. 74,
Jury Verdict Form). The jury likewise found that Fowler had subjected
Plaintiff to a severe or pervasive hostile environment based on his national
origin or race. (See id. Question 4). The jury determined pursuant to
Question 5 (Retaliation) “that Plaintiff was retaliated against because he, in
good faith, engaged in the protected activity of opposing discrimination.” (Id.)
Specifically, the jury found that Plaintiff was demoted by Fowler and
Ford, placed on a Performance Improvement Plan by Zhou, and terminated

2

by Ford because of his protected activity. (Id.) The jury awarded damages to
Plaintiff for pension and retirement losses in the amount of $1.7 million, and
$100,000 emotional distress damages. (Id. Question 6). The jury also awarded
punitive damages in the amount of $15 million against Ford. (Id. Question 8).
Defendants had filed a Rule 50(a) Motion for Judgment as a Matter of law
at the close of Plaintiff's proofs. The Court heard argument after instructing
the jury and took the motion under advisement. Among other things,
Defendants asserted that because Ford had made a job available to Khalaf,
and Khalaf refused the offer, “[a]s a matter of law and logic” he voluntarily
quit. (ECF No. 66 at 5). Following the jury's verdict and discharge, the Court,
in a statement from the bench, indicated its agreement with Defendants'
argument that the termination claims failed, observing that the trial
testimony showed that when Khalaf returned from a leave of absence there
were no jobs available at his level, and that the job he was offered, although
at a lower level, would be paid the same. The Court considered Plaintiff to be
terminated not because of discrimination or for any reason other than he
decided not to accept the position. Thereafter, the parties filed briefs relating
to the judgment.
In its July 23, 2018, Opinion, the Court observed that it had stated its
intention to grant a judgment as a matter of law in Defendants' favor to the
extent that Plaintiff's claims rest on a theory of wrongful termination. (ECF
No. 95 at 2). The Court had not entered an Order or Judgment, however, and

3

the Court instructed the parties to address any effect on the jury's award of
damages through a renewed post-trial motion brought under Rule 50(b). (Id.)
The Court then denied without prejudice Defendants' pre-verdict March 22,
2018 motion under Fed. R. Civ. P. 50(a) for judgment as a matter of law.
Accordingly, on July 23, 2018, the Court entered Judgment in the amount of
$1.8 million in compensatory damages in favor of Plaintiff and against
Defendants Ford, Fowler, and Zhou, jointly and severally; judgment in the
amount of $15 million in punitive damages in Plaintiff's favor and against
Ford; and held that Plaintiff would be awarded such interest, costs, and
attorney fees as allowed by law and authorized by the Court. (ECF No. 99).
In their revised Rule 50(b) motion, Defendants contend that the Court's
grant of a directed verdict on the wrongful termination claim requires the
Court to vacate all of the damages. Specifically, Defendants ask the Court to
hold as a matter of law that the $1.7 million award of economic damages
must be reduced to zero because it rests entirely on the wrongful termination
theory; that the $15 punitive damages award be reduced to zero because in
the absence of a viable wrongful termination theory, the jury's answers on
the verdict form do not support a punitive damages award as a matter of law.
Defendants argue in the alternative that the punitive damages award is
unconstitutionally excessive. Defendants ask the Court to grant judgment as
a matter of law on the remaining claims. Finally, Defendants ask the Court
to award a new trial due to instructional errors and prejudicial argument by

4

Plaintiff's counsel. In the event that the Court orders a new trial, Defendants
ask the Court not to retry any claim resolved in their favor and to retry the
remaining claim as to both damages and liability.

II. ANALYSIS
A. Rule 50(b) Renewed Motion for Judgment as a Matter of Law
“If the court does not grant a motion for judgment as a matter of law made
under Rule 50(a), the movant may file a renewed motion for judgment as a
matter of law.” Fed. R. Civ. P. 50(b). The legal “standard for judgment as a
matter of law under Rule 50 is the same as the standard for summary
judgment under Rule 56.” Groeneveld Transport Efficiency, Inc. v. Lubecore
Int'l, Inc., 730 F.3d 494, 503 (6th Cir. 2013) (citing Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 150 (2000)). The Court should grant a
motion for judgment as a matter of law if “there can be but one reasonable
conclusion as to the verdict.” Id. (quoting Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 250 (1986)) (internal quotation marks omitted). Accordingly, the
Court must determine “whether there was sufficient evidence presented to
raise a material issue of fact for the jury.” Powers v. Bayliner Martine Corp.,
83 F.3d 789, 796 (6th Cir. 1996) (quoting Monette v. AM-7-7 Baking Co., 939
F.2d 276, 280 (6th Cir. 1991)) (internal quotation marks omitted). “ ‘[I]f the
verdict is one that reasonably could be reached, regardless of whether the
trial judge might have reached a different conclusion were he [or she] the

5

trier of fact,’ ” the motion must be denied. Powers, 83 F.3d at 796 (quoting
Wayne v. Village of Sebring, 36 F.3d 517, 525 (6th Cir. 1994).

1. Termination Claims
Although the Court indicated on the record it was inclined to grant the
Rule 50(a) motion on Plaintiff's termination claims, upon further reflection
and the opportunity to review all the evidence, including the testimony and
documents, it is apparent that Plaintiff's retaliatory termination claim does
not fail for a complete absence of proof; controverted issues of fact upon which
reasonable persons could disagree do exist.
At the outset, the Court notes that under Sixth Circuit law, an adverse
employment action involves a “materially adverse change in the terms of
employment.” White v. Burlington N. & Santa Fe Ry. Co., 364 F.3d 789, 791
(6th Cir. 2004) (en banc) (quoting Kocsis v. Multi–Care Mgmt., Inc., 97 F.3d
876, 885 (6th Cir. 1996)). In Kocsis, the appellate court determined that in
the absence of evidence that the reassignment of a nursing supervisor to a
unit nurse involved less prestige, a lower salary, worse hours, or a difference
in employment related benefits was not an adverse action. Id. at 886-87. The
Sixth Circuit reached a different conclusion in White, a case involving the
reassignment of the plaintiff from a forklift position to a track laborer
position. 364 F.3d at 792. Even though the plaintiff kept the same pay and
benefits because the job was more difficult, more labor intensive and

6

considered a worse job by other workers, 364 F.3d at 792-73, the Sixth Circuit
concluded the transfer constituted a demotion. Id. at 803.
The Court's obligation is to consider this authority through the lens of its
obligation under Rule 50 to view the evidence in the light most favorable to
the nonmoving party, Khalaf, to render no credibility determinations of the
witnesses, and to decline to weigh the evidence. See Denhof v. City of Grand
Rapids, 494 F.3d 534, 543 (6th Cir. 2007) (citing Ratliff v. Wellington
Exempted Vill. Sch. Bd. of Educ., 820 F.2d 792, 795 (6th Cir.1987)); see also
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150 (2000)
(explaining that the Rule 50 standard mirrors that of Rule 56). With these
standards in mind, the Court directs its attention to the evidence put forth
during trial.
Plaintiff presented evidence to support the job he was offered upon his
return from medical leave was an adverse action. Specifically, he testified
that the job offered to him was not at the same grade although he would
receive the same pay, which would impact his potential bonuses. More
importantly, his seniority date would be altered, which would impact his
pension benefits. He also testified that he had to self-demote to return to
work. Director of HR, Mike Lank, testified that Ford offered Plaintiff money
if he separated because there was no LL5 position, and Lank admitted that
Ford does not offer money to voluntary quits. (ECF No. 110, Ex. H at 186).
The Court is cognizant that Lank denied that Khalaf's benefits would have

7

been altered, but Khalaf testified to the contrary. In addition, the jury
received testimony about Ford's Disability Policy.
Under the express language of Ford disability leave policy, employees
reemployed by the Company following an extended disability termination will
be reinstated with original Ford Service Date if: 1) adequate proof of
disability is submitted that covers the entire period of lost time and 2)
reemployment occurs prior to the employee breaking service with the
company. (Ford's written Disability (Medical) Leave Policy, (Exhibit C,
admitted as a trial exhibit P-145, Disability Medical Leave Policy). Khalaf's
disability ended before he returned to work because of inadequate proof.
Therefore, there was sufficient evidence, if credited by the jury, to support
that Khalaf did not end his employment voluntarily.
Next, the Court considers whether there was evidence presented to
support Khalaf's claim that his termination was retaliatory. That evidence is
not viewed in a vacuum, and Plaintiff's evidence revolved around the
sequence of events just prior to and those following Plaintiff's protected
activity. Plaintiff's first involvement in such activity occurred in February
2013, when he instructed Pauline Burke to make a complaint of sexual
harassment. Prior to the complaint, Plaintiff's supervisor, Fowler, made
Khalaf manager of QS and PP and reinstated Khalaf to his former LL5
position. Also in early 2013, prior to the Burke complaint, Fowler told

8

Plaintiff during a discussion about compensation that Khalaf would be
receiving a gift that would make him very happy.
Instead of receiving good news, in April 2013, Fowler met with Khalaf and
told Khalaf he was being removed as manager of QS and PP and stripped of
his title due to “corporate investigations.” (ECF No. 110, Ex. G at 65-66). At
the same meeting, Fowler told Khalaf that the current QPIP target of under
$1 billion was being raised to $15 billion. (Id. at 67-69). Thereafter, Khalaf
informed the manager of HR, Wendy Warnick, that he had been given
unachievable goals designed to set him up for failure. (Id. at 69-70). Khalaf
also presented evidence that HR did not want Fowler to “get wind” of the
Burke complaint.
Zhou took over Plaintiff's position, unofficially, in April 2013. In June
2013, Khalaf complained to HR about his hostile work environment.
In October 2013, Khalaf approached Zhou because Zhou was sidestepping
Khalaf and giving directions directly to Khalaf's QFLs. In his December 2013
performance review, Khalaf did not receive a single “does not meet”
expectations rating, and he exceed his most critical objection by $200 million.
Nevertheless, Zhou told Khalaf he was trending toward low achiever, yet
Zhou provided no coaching to Khalaf. Thereafter, Khalaf's efforts to transfer
to open positions were blocked, and HR ignored Khalaf's January 2014 e-mail
to HR and Zhou seeking assistance with his work situation.

9

In April 2014, Khalaf was placed on a Performance Enhancement Plan
(“PEP”), and during the meeting to discuss the PEP, Lank referenced
Plaintiff's harassment complaint. After the PEP was underway, Zhou and
Ford attempted to add additional objectives to those established in February
2014, contrary to Ford policy; Zhou told Khalaf to take an ESL class; and
thirty days into the PEP, Ford signed off on a Career Transition Plan, as did
Zhou and Fowler. Khalaf's request to be considered for other positions was
refused.
Khalaf filed this case in July 23, 2015, while he still worked for Ford. In
his lawsuit, he alleged retaliation for protected activity and hostile work
environment that resulted in Khalaf's one-year medical leave. (ECF No. 1).
He later amended his complaint to encompass his termination. Finally, Ford
listed Plaintiff's employment status as terminated as of July 14, 2015, the
date Khalaf attempted to return to work from his medical leave.
Based on a review of all the evidence, the Court's inclination to direct a
verdict against Plaintiff and in Defendants' favor on the claim of retaliatory
termination of Plaintiff's employment with Defendant Ford was misguided.
(See 3/28/2018 Trial Tr. at 35-36.) Plaintiff did advance sufficient evidence
from which the jury could and did find in his favor.

10

2. Hostile Environment
In general, Defendants seek relief from the hostile environment claims on
their assertion that the harassment was neither pervasive nor severe. When
courts assess “whether an actionable hostile work environment claim exists,”
they consider the totality of “the circumstances, including the frequency of
the discriminatory conduct; its severity; whether it is physically threatening
or humiliating, or a mere offensive utterance; and whether it unreasonably
interferes with an employee's work performance.” Nat'l R.R. Passenger Corp.
v. Morgan, 536 U.S. 101, 116 (2002) (internal citation omitted). Consequently,
an occasional offensive utterance does not create a hostile work environment.
“To hold otherwise would risk changing Title VII into a code of workplace
civility.” Grace v. USCAR, 521 F.3d 655, 679 (6th Cir. 2008) (internal
quotation marks omitted).
a. National Origin/Fowler
The testimony at trial was that Fowler subjected Plaintiff to comments
about his English on a weekly basis, asking Plaintiff whether he understood
English, and telling Plaintiff to speak English. In addition, Khalaf demeaned
Plaintiff at weekly meetings, blamed Plaintiff for low Pulse scores, and
subject Plaintiff to a performance review and PEP that were contrary to Ford
policy.

11

b. Subordinates
Because the alleged harassers in this case also included Khalaf's
subordinates, the standard is formulated differently. An employer can be
vicariously liable when a subordinate employee harasses his or her
supervisor when “the employer knew or should have known of the
harassment and failed to implement prompt and appropriate action” except
“where the supervisor-plaintiff had the ability to stop the harassment and
failed to do so.” Lyles v. D.C., 17 F. Supp. 3d 59, 69–71 (D.D.C. 2014).
Notably, when the supervisor reports the harassment to his supervisors
because he cannot stop the harassment, and “ the employer resists such
actions, the employer will still be liable for allowing the hostile work
environment to persist despite being on notice of the problem.” Id. Here,
Khalaf eventually sought the intervention of HR, but the harassment
continued.
Plaintiff did offer evidence to support a claim of hostile environment based
on national origin or race by Plaintiff's subordinates. Although the bulk of the
evidence presented demonstrated disrespect by Plaintiff's subordinates, there
was evidence relating to Plaintiff's accent conveyed through an anonymous
comment left in a drop box that criticized his “writing and understanding
English.”

12

3. Protected Activity Involving Pauline Burke
Defendants challenge whether as a matter of law, Khalaf established he
engaged in protected activity relative to the Pauline Burke complaint. A
prima facie case of retaliation is established under Title VII when the
plaintiff shows that “(1) he...engaged in protected activity, (2) the employer
knew of the exercise of the protected right, (3) an adverse employment action
was subsequently taken against the employee, and (4) there was a causal
connection between the protected activity and the adverse employment
action.” Niswander v. Cincinnati Ins. Co., 529 F.3d 714, 720 (6th Cir.2008).
Specifically, “but for” causation between the protected activity and the
adverse employment action is needed. Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 362 (2013).
The sexual harassment claim arose out of a coworker telling Burke to “put
her big girl pants on.” Plaintiff told Burke to file a complaint. According to
Defendants, his conduct does not constitute protected activity because his
belief that she was subjected to discriminations was not objectively
reasonable.
Under the authority of this circuit, an employee “ ‘may not invoke the
protections of the Act by making a vague charge of discrimination.’ ” Fox v.
Eagle Distrib. Co., 510 F.3d 587, 591 (6th Cir. 2007) (quoting Booker v. Brown
& Williamson Tobacco Co., 879 F.2d 1304, 1313 (6th Cir.1989) (holding that
complaints about “ethnocism” were too vague to constitute protected

13

activity)). Nevertheless, there is no requirement that a complaint “be lodged
with absolute formality, clarity, or precision.” Yazdian v. ConMed Endoscopic
Techs., Inc., 793 F.3d 634, 645 (6th Cir.2015) (internal quotation marks
omitted). The Court finds sufficient evidence was presented to support a
finding that Plaintiff engaged in protected activity regarding the Burke
complaint.
4. Retaliation/PEP
The jury found that Zhou retaliated against Plaintiff by placing him on a
PEP. Defendants argue that Plaintiff's placement on a PEP was not
retaliatory as a matter of law under Rule 50 for several reasons. Zhou did not
retaliate over the Burke complaint because Zhou was not even in the
department when Burke made the complaint, and Defendants argue that
Plaintiff's counsel conceded this point.
Notably, Zhou became the unofficial manager in April 2013, shortly after
the Burke complaint.
When Zhou evaluated Khalaf's performance in December 2013, Zhou
warned Khalaf that a PEP would be coming if Khalaf did not improve his
performance. The characterization of Khalaf as trending toward a lower
achiever came even as Khalaf was rated as achieving all of his performance
goals, and exceeding his most important one. Zhou did not provide
performance counseling to Khalaf even after Khalaf's performance review.

14

Instead Zhou decided to institute the PEP in March 2014. Although the
PEP paperwork was processed before Plaintiff made his April 2014
harassment complaint, the evidence at trial demonstrated a continuous
course of conduct aimed at Khalaf following his protected activity. Each
alleged incident of harassment cannot be viewed in a vacuum, as “[w]hat may
appear to be a legitimate justification for a single incident of alleged
harassment may look pretextual when viewed in the context of several other
related incidents.” Jackson v. Quanex Corp., 191 F.3d 647, 661–62 (6th Cir.
1999) (citations omitted). The mere existence of arguments that challenge the
jury's finding is an insufficient basis for the requested relief. The jury had the
opportunity to assess all of the evidence as a whole, and evidence was
presented to support Plaintiff's claim as to Zhou.
5. Punitive Damages
Defendants maintain that a directed verdict on the termination claim
means that the punitive damages award must be set aside. In Parker v. Gen.
Extrusions, Inc., 491 F.3d 596, 601 (6th Cir. 2007), the Sixth Circuit set forth
the standard that must be met by a Title VII claimant to recover punitive
damages. Specifically, the appellate court held that a claimant must
“demonstrate by a preponderance of the evidence that the employer ‘engaged
in a discriminatory practice...with malice or with reckless indifference to the
federally protected rights of an aggrieved individual.’ ” Id. (citing 42 U.S.C. §
1981a(b)(1)). Under this standard three criteria must be met. First, those

15

“individuals perpetrating the discrimination [must have] acted with malice or
reckless disregard as to whether the plaintiff's federally protected rights were
being violated. ” Second, the employer is liable, only if “the agent was
employed in a managerial capacity and was acting in the scope of
employment; and an absence of evidence showing that the defendant
“engaged in good faith efforts to comply with Title VII.” ” Kolstad v. American
Dental Ass'n, 527 U.S. 536, 542–43, 544-46 (citations omitted). The
requirements also apply to claims under Section 1981. Id. at 535-36.
Here, Ford advances arguments based on its position that the retaliatory
termination claim has been invalidated. Because that is not the case, the
Court considers its alternate argument–-that punitive damages against Ford
are not justified. In support of their position, Defendants point to the absence
of any award of punitive damages as to the individual Defendants, Fowler
and Zhou. Defendants conclude from this fact that Ford cannot be responsible
for punitive damages based on their actions.
The Court finds this argument unavailing. The jury heard testimony from
other managerial employees, thereby creating a basis for an award of
punitive damages.
Even if punitive damages are justified, the Court must consider whether
the punitive damages award is unconstitutionally excessive. The measure of
punishment must be reasonable and proportionate to the amount of harm to
the Plaintiff and to the general damages recovered. To determine “[w]hether

16

a punitive damages award is so excessive as to offend due process,” courts
assess three factors: “the degree of reprehensibility of the defendant's
conduct, the punitive award's ratio to the compensatory award, and sanctions
for comparable misconduct.” Romanski v. Detroit Entm't, L.L.C., 428 F.3d
629, 643 (6th Cir. 2005) (citing BMW of North America, Inc. v. Gore, 517 U.S.
559, 576–84 (1996)).
In order to grant a motion for a remittitur, a court must find that the
jury's award “is: 1) beyond the range supported by proof; 2) so excessive as to
shock the conscience; or 3) the result of mistake.” Szeinbach v. Ohio State
Univ., 820 F.3d 814, 820 (6th Cir. 2016) (quotation omitted). “In making its
determination, the court must review the evidence in a light most favorable
to the prevailing party.... A court's decision to grant or deny remittitur is
reversible only for abuse of discretion.” Chapman v. AmSouth Bank, No. 1:04CV-237, 2005 WL 3535150, at *4 (E.D. Tenn. Dec. 22, 2005).
Before turning to the factors, the Court finds that the punitive damages
award was so excessive as to shock the conscience. The Court considers the
Gore factors to establish what award, if any, is appropriate.
a. Reprehensibility
Defendants assert that the award is unconstitutionally excessive. First
they challenge the existence of any factors to support reprehensibility. The
Supreme Court has spoken to this factor, observing that “[t]he most
important indicium of the reasonableness of a punitive damages award is the

17

degree of reprehensibility of the defendant's conduct.” Romanski, 428 F.3d at
643 (citations omitted). Criteria assessed in making the determination
include, “whether the harm caused was physical as opposed to economic; the
tortious conduct evinced an indifference to or a reckless disregard of the
health or safety of others; the target of the conduct had financial
vulnerability; the conduct involved repeated actions or was an isolated
incident; and the harm was the result of intentional malice, trickery, or
deceit, or mere accident.” Id. (citing Gore, 517 U.S. at 576–77).
According to Defendants, Plaintiff did not suffer physical harm; there was
no reckless disregard to the health and safety of others; and Plaintiff was not
financially vulnerable. They add that the there is no proof of intentional
malice, trickery, or deceit by Ford. In contrast, Plaintiff claims he
experienced physical manifestations of his psychological harm, and asks the
Court to consider Fowler's threatening and abusive behavior toward Khalaf
as establishing indifference or reckless disregard for Plaintiff's health and
safety.
The Court agrees with Defendants, that Plaintiff did not suffer physical
harm. He suffered no physical assault or trauma; his harm was emotional–
humiliation and outrage. The jury awarded Plaintiff emotional distress
damages. See Wesley v. Campbell, 864 F.3d 433, 444 (6th Cir. 2017). There is
no evidence of indifference to the “health and safety of others” in this case.
Nor does the Court find that Khalaf was in a position of financial

18

vulnerability. Within days of his termination from Ford, Plaintiff had
employment.
Nevertheless, the conduct at issue was ongoing. Although Defendants rely
on the fact that Plaintiff did not offer evidence that “similar reprehensible
conduct [was] committed against various different parties.” Chicago Title Ins.
Corp. v. Magnuson, 487 F.3d 985, 1000 (6th Cir. 2007), the Court finds the
standard is met through the conduct directed at Plaintiff. In sum, the factors
assessed to measure the reprehensibility of Ford tip slightly in favor of Ford.
2. Ratio
Defendants next assert that the ratio between the punitive damages and
the compensatory damages awarded supports the unconstitutionality of this
award. In making this argument, Defendants use only the compensatory
emotional damages and ignore the compensatory economic front pay award.
Generally, the ratio between punitive and compensatory damages should be
limited to “single-digit” ratios, meaning no more than 9:1. See State Farm
Mut. Auto Ins. Co. v. Campbell, 538 U.S. 408, 425 (2003) (observing that
“[s]ingle-digit multipliers are more likely to comport with due process, while
still achieving the State's goals of deterrence and retribution, than awards
with rations in range of 500 to 1”). Here, the ratio was 8.3 to 1 when
considering the total compensatory damages, but 150 to 1 considering the
emotional damages.

19

c. Disparity
The final consideration is the disparity between the punitive damages
award and the “civil penalties authorized or imposed in comparable cases.”
Gore, 517 U.S. at 575. In this case, Defendants use the punitive damages cap
imposed under Title VII as measured against the absence of a cap on punitive
damages under Section 1981. Under Title VII, the cap is $300,000. The
Supreme Court instructed in Gore that “[c]omparing the punitive damages
award and the civil or criminal penalties that could be imposed for
comparable misconduct provides a third indicium of excessiveness.” Gore, 517
U.S. at 583. Here, the Court finds that the disparity between $15 million and
$300,000 creates a basis for remittitur. The degree of the discrepancy when
considered with the other factors is difficult to ignore. Accordingly, the Court
finds the that the punitive damages award must be reduced. Accordingly, the
Court grants the request for remittitur and will award punitive damages in
the amount of $300,000, an amount three times greater than the emotional
damages award.
B. Motion for New Trial
“The court may, on motion, grant a new trial on all or some of the issues-and to any party ... after a jury trial, for any reason for which a new trial has
heretofore been granted in an action at law in federal court.” Fed. R. Civ. P.
59(a)(1). “Generally courts have interpreted this language to mean that a new
trial is warranted when a jury has reached a ‘seriously erroneous result’ as

20

evidence by: (1) the verdict being against the great weight of the evidence; (2)
the damages being excessive; or (3) the trial being unfair to the moving party
in some fashion, i.e., the proceedings being influenced by prejudice or bias.”
Holmes v. City of Massillon, Ohio, 78 F.3d 1041, 1045-46 (6th Cir. 1996). The
governing consideration in deciding whether to order a new trial is “
‘whether, in the judgment of the trial judge, such course is required in order
to prevent an injustice ....’ ” Davis by Davis v. Jellico Cmty. Hosp. Inc., 912
F.2d 129, 133 (6th Cir.1990) (quoting Kilgore v. Greyhound Corp., 30 F.R.D.
385, 387 (E.D. Tenn.1962)).
Defendants advance several grounds for a new trial. Because the Court
has found the jury verdict supported by the evidence, Defendant's arguments
about the jury verdict form are immaterial. Likewise, in light of the Court's
ruling on the directed verdict motion, Defendants' assertion that the
economic damages award, which rests entirely on the termination theory,
must be vacated and reduced to zero is moot as is Defendants' assertion that
the $100,000 emotional distress damages award must be vacated because it
was infected by the retaliatory termination claim. In contrast, Defendants'
claims that they are entitled to a new trial based upon the jury instructions
and improper argument by Plaintiff's counsel remain viable despite the
Court's ruling on the Rule 50(b) motion. Those arguments are addressed
below.

21

Defendants assert that they are entitled to a new trial due to the
individual and cumulative effects of the erroneous jury instructions and
improper, prejudicial argument by Plaintiff's counsel. The Court disagrees.
Jury Instruction 27 reads:
Even hostility, conduct and comments directed at a Plaintiff
that are not expressly racial or discriminatory in nature may
contribute to his hostile work environment, if you find that
conduct would not have occurred but for the fact of the plaintiff's
race or national origin.
Defendants observe that antidiscrimination laws are not a code of general
civility, and that generic antipathy is not enough to support a violation of the
law. The instruction conveys that statement of law, connecting the conduct to
race or national origin discrimination.
The Court also instructed the jury that “[d]iscrimination based on accent
or manner of speaking can be national origin discrimination. The fact that
Plaintiff has a foreign accent is not sufficient to establish a claim of national
origin discrimination based on accent or manner of speaking.” (Jury Instr.
18). The Court properly exercised its discretion in declining to give
Defendants' instruction that English criticism alone was not evidence of
national origin discrimination. The Court is not persuaded that it exercised
its discretion improperly by Defendants' argument, which builds on the jury's
question requesting a definition of “manner of speaking” but not “accent.”
Defendants use the question to speculate that the jury believed the two
terms had different meanings, when they actually are synonymous.
Defendants conclude that although the jury understood it could not reach a

22

verdict based solely on accent, it likely believed Plaintiff's English skills were
his manner of speaking; therefore, a new trial is warranted.
The Court's instructions accurately conveyed the governing law.
Defendants' conjecture that the jury erroneously believed that mere English
language criticism was sufficient for finding national origin discrimination is
an insufficient basis for awarding a new trial.
Defendants also challenge statements made by Plaintiff's counsel during
closing argument. Counsel told the jury that no one from Ford would admit to
having prejudice against people of Arabic descent or equate Arabic people
with terrorist, “but the reality is we live in a post 911 world and people of
Arabic descent, like Dr. Khalaf, and people who have a Middle Eastern a
accent like Dr. Khalaf, are not always judge by the content of their character
but rather by awful stereotypes.” (3/27 Tr. at 14).
The Court denied a curative instruction. Counsel's comments were
innocuous inasmuch as counsel merely asked the jury to determine what
motivated the hostility of Khalaf's coworkers, using common sense and
experience. The statement provides no basis for awarding a new trial.

23

III. CONCLUSION
For the reasons stated above, the Court GRANTS in part and DENIES
in part the Rule 50(b) motion for judgment as a matter of law. The Court
grants remittitur as to the punitive damages award. It is reduced to
$300.000.
IT IS FURTHER ORDERED that Defendants shall file a response to
Plaintiff's motion for attorney fees and costs within fourteen days of the
Court's ruling on the post-trial motions.
IT IS SO ORDERED.

24

No.19-1435/1468
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FAYSAL KHALAF, Ph.D.,
Plaintiff-Appellant/
Cross-Appellee,
v.
FORD MOTOR CO., BENNIE
FOWLER, JAY ZHOU,
Defendants-Appellees/
Cross-Appellants.

)
)
)
)
)
)
)
)
)
)
)
)

ON APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN
Argued: May 6, 2020
Decided and Filed: August 31, 2020
Rehearing En Banc Denied: September 30, 2020
ARGUED: Sarah E. Harrington, GOLDSTEIN & RUSSELL, P.C., Bethesda,
Maryland, for Appellant/Cross-Appellee. Thomas G. Hungar, GIBSON,
DUNN & CRUTCHER LLP, Washington, D.C., for Appellees/CrossAppellants. ON BRIEF: Sarah E. Harrington, GOLDSTEIN & RUSSELL,
P.C., Bethesda, Maryland, Carol A. Laughbaum, Raymond J. Sterling,
STERLING ATTORNEYS AT LAW, Bloomfield Hills, Michigan, for
Appellant/Cross-Appellee. Thomas G. Hungar, Jacob T. Spencer, GIBSON,
DUNN & CRUTCHER LLP, Washington, D.C., Elizabeth P. Hardy, Thomas
J. Davis, KIENBAUM, HARDY, VIVIANO, PELTON & FORREST,
Birmingham, Michigan, for Appellees/Cross-Appellants.
Before: GUY, THAPAR, and BUSH, Circuit Judges.

25

OPINION
JOHN K. BUSH, Circuit Judge.
This appeal involves claims of national origin discrimination in violation
of Title VII, 42 U.S.C. § 2000e et seq., and Michigan's Elliott-Larsen Civil
Rights Act (ELCRA), Mich. Comp. Laws 37.2101 et seq., and racial
discrimination and retaliation in violation of 42 U.S.C. § 1981. The claims
were brought by Faisal G. Khalaf, Ph.D., who is of Lebanese descent, against
Ford Motor Company, his former employer, and Bennie Fowler and Jay Zhou,
his former supervisors at Ford. Specifically, Dr. Khalaf contends that, he was
subjected to a hostile work environment because of his race or national
origin, and that defendants illegally retaliated against him, after he engaged
in protected activities, by demoting him, placing him on a “Performance
Enhancement Plan” (PEP), and ultimately terminating his employment.
The jury found that (1) Dr. Khalaf was neither demoted nor terminated by
Ford because of his race or national origin; (2) neither Ford as a corporate
entity nor Zhou subjected him to a hostile work environment, but Dr.
Khalaf's subordinates at Ford had done so (based on national origin or race),
and so had Fowler (based on national origin, but not race); and (3) Dr. Khalaf
was subjected to retaliatory demotion by Ford and Fowler, retaliatory
placement on a PEP by Zhou, and retaliatory termination by Ford alone, but
was not subjected to retaliatory placement on a PEP by Fowler or Ford or
retaliatory termination by Fowler or Zhou.

26

For the collective actions of all defendants, the jury awarded Dr. Khalaf
$1.7 million in pension and retirement losses and $100,000 in emotionaldistress damages. For the actions of Ford only, the jury awarded Dr. Khalaf
$15 million in punitive damages. The district court granted Ford's motion for
remittitur of punitive damages but denied all of defendants’ other postverdict motions, including motions for judgment as a matter of law under
Federal Rule of Civil Procedure 50(b). As to remittitur, the district court
determined, in light of all of the evidence, that the exemplary damages
imposed on Ford were “so excessive as to shock the conscience” and violated
due process. Therefore, the court reduced the punitive damages award to
$300,000.
For the reasons outlined below, we hold that the district court erred in
denying defendants’ motions for judgment as a matter of law.

Accordingly,

we REVERSE and direct the district court to enter judgment in favor of
defendants. Based on this holding, we need not address remittitur.

27

I. BACKGROUND
A. Dr. Khalaf's Employment at Ford
In 1999, Ford hired Dr. Khalaf as a full-time non-management process
engineer. R.134, 3.12. Tr., PageID 5655. During much of his career at Ford,
Dr. Khalaf was a technical specialist responsible for working on projects
involving Six Sigma methodology.1 Id. at PageID 5655, 5678. In his early
years in that capacity, Dr. Khalaf did not gain extensive experience
managing other employees. Nonetheless, in 2002, he attained “Leadership
Level (LL)” 6, Ford's lowest managerial level.2 Three years later, in 2005, Dr.
Khalaf moved up to an LL5 position. R.134, 3.13. Tr., PageID 5663-5664.
In 2006, Dr. Khalaf met the new Vice President of Global Quality at Ford,
Bennie Fowler. During the conversation, Dr. Khalaf shared information
about his educational and professional background. Dr. Khalaf also told
Fowler that he had immigrated from Lebanon and spoke Arabic. R.134, 3.13
Tr., PageID 5671-5672.
In 2007, Fowler reorganized the Global Quality Department and
eliminated Dr. Khalaf's position. Id. at PageID 5673. According to Dr. Khalaf,
he had been assured by another manager that, even with his job gone, he
would remain at the LL5 level, though it would require a new reporting
relationship. However, as Dr. Khalaf later learned, this was incorrect, as
Fowler then assigned him to an LL6 position. Id. at 5673-5674. Nonetheless,
pursuant to Ford's “in-grade protection” policy, Dr. Khalaf was permitted to

28

maintain the same salary and benefits of an LL5 while serving as an LL6. Id.
at PageID 5675; R.135, 3.14.Tr., PageID 5839-5840.
In January 2008, Fowler approved a job transfer for Dr. Khalaf to Brazil.
R.137, 3.19.Tr., PageID 6129. According to Fowler, this international role was
a “high-rank assignment[ ]” for Dr. Khalaf that “not everyone [at Ford] had
the opportunity” to hold. R.134, 3.13.Tr., PageID 5683. The position was
intended to last two years, with Dr. Khalaf supervising four or five Ford
employees. R.140, 3.22.Tr., PageID 6884. However, after just one year in his
new job, Dr. Khalaf was sent back to the United States by his supervisor,
Ruebens Vaz—a decision that, according to Ford, resulted from Dr. Khalaf's
“lack of management skills” and adverse effect on “the morale of the team” he
was supervising. Id. at 6885, 6890; see id. at 6890 (supervisor explaining that
Dr. Khalaf had “lost the team,” and therefore, the supervisor “had to make
the decision to ... end the assignment”). Upon Dr. Khalaf's return to the
United States, he immediately accused Vaz of discrimination and harassment
based on race or national origin, and mistreatment during one-on-one
meetings. R.135, 3.14.Tr., PageID 5831-5833, 5835.
Fowler assigned Dr. Khalaf to a new job as a “Quality Functional Leader
(QFL)” in Ford's Quality Strategy and Productive Placement Department
(QS&PP Department), R.134, 3.14.Tr., PageID 5840; R.137, 3.19.Tr., PageID
6130, which is part of Ford's Global Quality Organization. In this group, Dr.
Khalaf worked as an LL6 on cost-savings projects for Ford. R.135, 3.14.Tr.

29

PageID 5674-5675. According to Ford, Dr. Khalaf was deliberately placed as
an LL6 through the company's “Individual Grade Protection” Program.
Under this program, a returning international-service employee retains the
Leadership Level held during the foreign assignment for a limited time as the
employee seeks a job to restore the higher Leadership Level that the
employee held prior to the foreign assignment. Id. at PageID 5839–5840.
In June 2012, following the resignation of the QS&PP Department
manager, Fowler appointed Dr. Khalaf as an interim manager of this
department. Shortly thereafter, the appointment became permanent, R.136,
3.15.Tr., PageID 6009, 6014; R.135, 3.14.Tr., PageID 5706, 5710–5714, 5746;
R.136, 3.15.Tr., PageID 6010–6012, and Dr. Khalaf again became an LL5.
R.135, 3.14.Tr., PageID 5746. In this new management role, Dr. Khalaf
oversaw two teams of Ford employees: (1) QFLs (Dr. Khalaf's former job),
who worked on cost-saving projects; and (2) Quality Analysts, who were
responsible

for

gathering

data

and

preparing

detailed

PowerPoint

presentations for Ford's weekly “Business Plan Review” (BPR) meetings.
R.135, 3.14.Tr., PageID 5703, 5707. BPR meetings, as Ford explains, were
essential strategy sessions with Ford's executive leadership team.3 The BPR
presentations involved lengthy reports (of approximately 500 pages) and
critical quality data about Ford's vehicles. R.138, 3.20.Tr., PageID 6466–
6470. Given the importance of the meetings, Fowler testified, he always
“needed the information to be timely” and “free from errors.” R.137, 3.19.Tr.,

30

PageID 6121. That standard was not met by Dr. Khalaf's team, according to
Fowler. Compounding the problem, Fowler was disappointed with Dr.
Khalaf's leadership of his team at the time. Particularly, while Fowler had
expected Dr. Khalaf “to establish the relationships with the team” and “spend
time learning what the standards are, learning what the information is, and
working with the teams from the business office,” Dr. Khalaf seemed to
struggle with this role. Indicative of this, in June 2013, Kim Harris, one of
the employees directly reporting to Dr. Khalaf, recorded that as a result of
Dr. Khalaf's management style, the “[d]epartment is in [t]urmoil (extremely
high stress levels, some have had to seek counseling, many applying to get
out of th[is] department).” R.79-12, PX27, PageID 2487.
B. Dr. Khalaf's Alleged Protected Conduct
Dr. Khalaf alleges three instances of protected conduct in support of his
retaliation claims against Jay Zhou, to whom Dr. Khalaf reported from
August 2013 to June 2014.
The first involved a heated phone call between two employees in Dr.
Khalaf's department, Pauline Burke and David Buche, in February 2013.
This exchange reportedly involved discussion of cost-saving measures. Buche
allegedly told Burke to “be a big girl and come up with the savings.” R.79-7,
PX15, PageID 2459.
Upon learning of the phone exchange, Dr. Khalaf directed Burke to send a
“claim” to Human Resources (HR). R.79-8, PX16, PageID 2469.4 In her HR

31

submission, Burke indicated she had a “right to work in a non-hostile
environment.” However, in neither Burke's filing nor subsequent email
exchanges between Dr. Khalaf and HR did Burke or Dr. Khalaf ever
characterize the phone conversation as involving sexual discrimination or
sexual harassment. See id.; R.79-8, PX16, PageID 2468–2469.
The second instance of protected conduct referenced by Dr. Khalaf
involved an email he sent in June 2013 to Wendy Warnick, a Human
Resources manager at Ford. See R.37-14, PX26, PageID 1176-1180. Prior to
sending the email, Dr. Khalaf had approached Fowler, alleging hostile
treatment by his subordinates. Fowler responded to Dr. Khalaf's concerns by
directing Dr. Khalaf to ask that Warnick transition the hostile subordinates
to a different part of the company. R.135, 3.14.Tr., PageID 5744-5745.
Adhering to Fowler's instruction, Dr. Khalaf sent an email to Warnick, in
which he outlined the hostile treatment he had faced by his subordinates,
and explained that the subordinates’ direct supervisor, Kim Harris, had
refused to hold them accountable. Id. at PageID 5745; R. 37-14, Warnick
Email, Page ID 1176-1179. Dr. Khalaf characterized the collective actions of
his subordinates as creating a hostile work environment. R.37-14, PX25,
PageID 1176-1179. According to Dr. Khalaf, HR's response was to do nothing.
R.135, 3.14.Tr., PageID 5745. Frustrated with the inaction, Dr. Khalaf
approached Fowler again about his subordinates. Id. at PageID 5745-5746.
At that point, Fowler responded that Ford would not relocate the hostile

32

subordinates, and Dr. Khalaf would just have to “deal with it.” Id. at PageID
5746.
The final instance of protected conduct referenced by Dr. Khalaf involved
his filing another complaint to HR on April 4, 2014, approximately three
weeks before he was placed on the “performance-enhancement-plan” (PEP) by
Zhou. Id. at PageID 5782, 5787-5787; R.140, 3.22.Tr., PageID 6840-6841. In
the email, Dr. Khalaf specifically alleged that he was being subjected to a
hostile work environment by Zhou and Fowler, and that he was being
retaliated against for his protected activity. R.135, 3.14.Tr., PageID 5783;
PX64, R.79-24, HR Email, PageID 2536. Several days after Dr. Khalaf's filing
of the complaint, he met with HR officer Les Harris. During this encounter,
Dr. Khalaf offered further explanation of his April 4 complaint, stating that
he was reporting discrimination and harassment based on his national origin,
which included Fowler's abusive treatment of him in one-on-one meetings
and Fowler's demands that Dr. Khalaf—and only Dr. Khalaf—fetch Fowler
coffee in larger meeting settings. R. 135, 3.14.Tr., PageID 5785-5786.
C. Fowler's Re-Organization of the QS&PP Department
Fowler testified that even after several months as department manager,
Dr. Khalaf in 2013 was still failing to prepare the BPR in a satisfactory
manner. R.137, 3.19.Tr., PageID 6122. Additionally, Dr. Khalaf continued to
encounter difficulties in managing his team, as documented by “Pulse”
surveys,5 completed by Dr. Khalaf's subordinates in August and September

33

2013. R.138, 3.20.Tr., PageID 6388-6390; R.137, 3.19.Tr., PageID 6167; see
also id. at PageID 6252. One particular report indicated that Dr. Khalaf
received a rating of “30” from his subordinates based on their dissatisfaction
with him as a supervisor. Ford characterized this score as “shocking[ly] low.”
In fact, it was the “lowest” score to ever be recorded in the QS&PP
Department. R.137, 3.19. Tr., PageID 6256, 6265.
According to Fowler, Dr. Khalaf's sub-optimal scores, as well as “[a] lot of
errors in [Dr. Khalaf's] presentation,” led Fowler to reorganize the QS&PP
Department. R.136, 3.15.Tr., PageID 6029. The first change he made was to
appoint Zhou as manager of the department. Id.; R.135, 3.14.Tr., PageID
5755-5756; R.137, 3.19.Tr., PageID 6166. Fowler then created a new LL5
position, “Lead QFL,” which he assigned to Dr. Khalaf. This position relieved
Dr. Khalaf of his prior responsibility to manage the Quality Analysts, though
he would still supervise the QFLs. R.135, 3.14.Tr., PageID 5756; R.136,
3.15.Tr., PageID 6029. As Lead QFL, Dr. Khalaf retained the same pay and
benefits as his prior position, but he now reported directly to Zhou. R. 137,
3.14.Tr., PageID 6124-6125.
D. Dr. Khalaf's Performance as Lead QFL
In a November 2013 performance assessment conducted by Zhou, Dr.
Khalaf received an “Achiever” rating, which, according to Zhou, is the
“average rating ... that most [Ford employees] get.” R.137, 3.19.Tr., PageID
6261. However, Zhou informed Dr. Khalaf that he was “trending toward a

34

lower achiever” rating. Id. In his written evaluation, Zhou indicated that Dr.
Khalaf's “leadership & supervisory skills need to be addressed.” R.82-5,
DX26, PageID 2899. Underscoring this assessment, Zhou offered examples of
what he believed were Dr. Khalaf's sub-optimal leadership characteristics,
including his inabilities to (1) “own[ ] an issue” versus decide it was “out of
[his] control”; (2) “acknowledg[e] a concern & [ ] delegat[e] for resolution”; and
(3) “deal[ ] with difficult situations, communication skills, team motivation &
leadership

engagement.”

Id.

According

to

this

written

assessment,

improvement would require Dr. Khalaf to address his “PULSE [ratings],
personnel relations issues, morale, relationships, & decision making.” Id. at
PageID 2900. Finally, Zhou warned that “[i]f there [was] not sustained
improvement,” Dr. Khalaf would “be placed on a PEP.” Id.
After providing this evaluation, Zhou made efforts to assist Dr. Khalaf
with his leadership skills. Zhou shared with Dr. Khalaf resources, available
through Ford's website, that could aid employees with “leadership and
development and communications skills development.” R. 37, 3.19.Tr.,
PageID 6262. However, according to Zhou, when he met with Dr. Khalaf in
January 2014, Dr. Khalaf continued to deny his “responsibility on the items
highlight[ed] in the performance [review].” R.137, 3.19. Tr., PageID 6265.

35

E. Dr. Khalaf's Initial Placement on a “Performance Enhancement
Plan”
Dr. Khalaf's management problems with his teams persisted into March
2014. During that month, Dr. Khalaf's direct supervisees met with Zhou to
“complain[ ] about ... the leadership behaviors of Dr. Khalaf” and discuss
“how people [were] mistreated” within the group. R.137, 3.19.Tr., PageID
6214-6215. According to Zhou, one employee in particular wanted “to change
job[s]” because the stress of dealing with Dr. Khalaf was “affecting [that
employee's] health.” R.138, 3.20.Tr., PageID 6394. Upon concluding that the
“team was destroyed by [Dr. Khalaf],” R.137, 3.19.Tr., PageID 6214, Zhou
decided to place him on a PEP. R.137, 3.19.Tr., PageID 6213. An HR
representative, who was directly responsible for Dr. Khalaf's department,
decided a 30-day PEP, as opposed to a 60-day PEP, would be most
appropriate, given that members of HR had “already coached [Dr. Khalaf] on
[ ] issues [related to his leadership performance].” R.82-5, DX132, PageID
2902. Nonetheless, as HR noted at the time, if Dr. Khalaf did not improve
during his initial 30-day PEP, this plan would be “extend[ed] to a second 30[]day PEP with [Career Transition Plan] language.” Id.
The first PEP was set to commence on April 4, 2014. On that day, Zhou
scheduled a meeting with Dr. Khalaf at which he planned to deliver news of
the PEP. But, before the meeting could take place, Dr. Khalaf canceled the
appointment. He indicated to Zhou that he would be “working from home” on

36

April 4 instead. R.82-5, DX135, PageID 2909; R.137, 3.19.Tr., PageID 6273–
6274.
On the afternoon of April 4, Dr. Khalaf then submitted an official
complaint to HR, in which he stated that he had been harassed by Fowler
and Zhou. R.79-24, PX64, PageID 2536. As discussed above, his act
represented the third instance of “protected conduct” that Dr. Khalaf
referenced in support of his retaliation claim against Zhou. However,
nowhere in Dr. Khalaf's complaint or within any other correspondence he
sent to HR related to the alleged harassment, did Dr. Khalaf ever state that
Fowler had criticized his English. Id.; R.136, 3.15.Tr., PageID 5899.
On April 23, 2014, Zhou finally delivered the PEP to Dr. Khalaf. Shortly
thereafter, when Dr. Khalaf asked HR supervisor Mike Lank why he was
being placed on a PEP, Lank responded to him, “you had your chance when
you filed your complaint.” R.135, 3.14.Tr., PageID 5789. During the months
thereafter, Zhou met with Dr. Khalaf on a weekly basis in order to review Dr.
Khalaf's progress and offer feedback. R.82-5, DX159, PageID 2944; R.137,
3.19.Tr., PageID 6281–6262, 6285–6293.
F. Dr. Khalaf's Second PEP and His Disability Leave
Dr. Khalaf failed to complete the first PEP successfully and therefore was
placed on a second PEP. R.137, 3.19.Tr., PageID 6294. This PEP stated that
if Dr. Khalaf did not “demonstrate significant and sustained improvements,”
his employment could be terminated. DX164, App.4; Id., App.3. On June 27,

37

2014, the day the second PEP was scheduled to end, Dr. Khalaf filed for a
disability leave of absence, claiming he was “totally disabled from working.”
R.135, 3.14.Tr., PageID 5842–5843. According to Dr. Khalaf, his need for a
leave of absence stemmed from emotional strain he had experienced at work.
He also indicated he had taken antidepressants and anti-anxiety medication
since March 2014. Id. at PageID 5794, 5796.
Throughout this period, Dr. Khalaf had consulted with his family
physician, as well as a psychologist, Dr. Michael Katz. Id. at 5795-5796. The
latter diagnosed Dr. Khalaf with post-traumatic stress disorder (PTSD),
based on Dr. Khalaf's symptoms, which included difficulty sleeping,
nightmares, stress, muscle tension, extreme anxiety, and depression. R.137,
3.19 Tr., PageID 6317-6319, 6324-6330. Defendants dispute Dr. Katz's PTSD
diagnosis and claim that he made it prematurely, after seeing Dr. Khalaf on
only one occasion. Appellees’ Br. at 56-57.
Dr. Khalaf remained on medical leave from Ford for approximately one
year. R.135, 3.14.Tr., PageID 5803. Based on the terms of Ford's disability
insurance policy, he was paid 100 percent of his salary for the first twelve
weeks of his disability leave and 60 percent for the remainder of the year. Id.
at 5796-5797. In compliance with Ford's requirements under the policy, Dr.
Khalaf's physician and psychologist submitted paperwork at approximately
one-month intervals, which confirmed Dr. Khalaf's need for a medical leave.
Id. at PageID 5797. It eventually came to light, however, that Dr. Khalaf was

38

teaching at a local college, Wayne State University. Id. at PageID 5801, 58435844.
With his disability benefits ending, Dr. Khalaf indicated that he would
return to Ford in July 2015.6 Id. at PageID 5804. Ford responded to Dr.
Khalaf that his prior Lead QFL role had been filled by another employee.
R.139, 3.21.Tr., PageID 6559. Consistent with Ford's leave policy, the
company placed Dr. Khalaf on a “no work available” status for a 30-day
period. Id. at 6566. During this time, a search was conducted across the
company for an open job commensurate with Dr. Khalaf's skills, experience,
and LL5 designation. The search particularly focused on opportunities within
the Global Quality Organization, as well as Manufacturing Operations and
Powertrain Program Engineering and other groups, including the Material
Handling Organization, the Product Development Group, the Vehicle
Operations

Manufacturing

Engineering

Group,

and

New

Models

departments. R.139, 3.21.Tr., PageID 6565, 6568, 6583, 6582-6590. According
to Ford, the search found no LL5 openings. Id. at PageID 6586.
Dr. Khalaf disputes that there were no LL5 openings, claiming that his
own investigation of Ford Motor Company's career website revealed “[m]any”
jobs that were available and possibly consistent with his qualifications.
R.135, 3.14.Tr., PageID 5805. However, Dr. Khalaf pointed to no specific job
that was available. Id. at PageID 5805-5806. Regardless, however, Dr. Khalaf
did not dispute that Ford eventually located a Global Quality supervisor

39

position within Ford's Quality Organization that reasonably matched Dr.
Khalaf's skills and experience.7 R.139, 3.21.Tr., PageID 6596. Though the
position was at the LL6 level, it offered the same salary as Dr. Khalaf's predisability-leave LL5 job, while providing comparable benefits and the
potential for him to get another LL5 position in the future. Id. The new
assignment also would accommodate Dr. Khalaf's specific request that he not
report directly to either Zhou or Fowler. Id. at PageID 6606.
Dr. Khalaf rejected the job offer. R.135, 3.14.Tr., PageID 5806-5807, 5824–
5825; R.80-12, PX122, PageID 2587; R.80-14, PX132, PageID 2597.
Consequently, on September 1, 2015, Dr. Khalaf was officially separated from
Ford under a designated program that would have offered him a severance
package. However, Dr. Khalaf rejected the severance package, given that
acceptance was contingent on his signing a release form. R.140, 3.22.Tr.,
PageID 6871. Dr. Khalaf accepted a higher salary job at BASF, another
Michigan-based-corporation. This new position also offered Dr. Khalaf a
signing bonus.
G. Procedural History
1. The Jury's Findings
In July 2015, Dr. Khalaf sued Ford, Fowler, and Zhou. R.1., Complaint,
PageID 2. He amended the complaint in May 2017. R.45, Amended
Complaint, PageID 1820. He alleged violations of 42 U.S.C. § 1981; Title VII
of the Civil Rights Act of 1964, 42 U.S.C. § 2000e et seq.; Michigan's Elliott-

40

Larsen Civil Rights Act (ELCRA), Mich. Comp. Laws, 37.201 et seq.; and 42
U.S.C. § 1981. In March 2018, the case was tried before a jury, which
returned the following verdicts.
First, the jury concluded that Dr. Khalaf had been neither demoted nor
terminated by Ford on account of his race or national origin. Second, the jury
determined that neither Ford as a corporate entity nor Zhou had subjected
Dr. Khalaf to a hostile work environment. However, the jury did find that Dr.
Khalaf's subordinates had subjected him to a hostile work environment based
on national origin or race, and that Fowler had subjected him to a hostile
work environment based on national origin, but not race. Finally, the jury
agreed with Dr. Khalaf's claims that he had been subjected to retaliatory
demotion by Ford and Fowler, retaliatory placement on a PEP by Zhou, and
retaliatory termination by Ford. Nonetheless, the jury rejected Dr. Khalaf's
contentions that he had been subjected to retaliatory placement on a PEP by
Fowler or Ford, and that he had been subjected to retaliatory termination by
Fowler or Zhou. R.74, Jury Verdict Form, PageID 2400-2401.
Based on these findings, the jury awarded Dr. Khalaf $1.7 million in
pension and retirement losses, $100,000 in emotional distress damages, and
$15 million in punitive damages, with the latter award to be imposed against
Ford alone.

41

2. Post-Verdict Motions
After the jury returned the verdict, the district court indicated its initial
inclination to grant judgment as a matter of law (JMOL) in Ford's favor on
the Dr. Khalaf's retaliatory termination claim. R.143, 3.28.Tr., PageID 72377238. However, the court decided to delay ruling definitively until it after it
had evaluated defendants’ post-verdict motions in their entirety.
On July 23, 2018, the district court issued an opinion and order on the
entry of judgment. Here again, the court deferred its decision on whether to
grant JMOL to Ford on the termination claim, indicating it would do so
eventually upon ruling on all of the post-judgment motions. R.95, PageID
3952-3953. Immediately thereafter, the court entered judgment in Dr.
Khalaf's favor, which reflected the compensatory and punitive damages
awards, in addition to interest, costs, and attorney's fees, as allowable by law.
R.99, Judgment, PageID 3964.
On August 20, 2018, defendants filed the following motions: (1) for
judgment as a matter of law pursuant to Federal Rule of Civil Procedure
50(b); (2) for a new trial pursuant to Rule 59(a); (3) to alter or amend the
judgment pursuant to Rule 59(e); and (4) for remittitur. R.102, New Trial
Motion, PageID 4084-4122.
On March 28, 2019, the district court granted defendants’ motion for
remittitur and reduced the punitive damages from $15 million to $300,000.
However, the district court denied defendants’ motions for JMOL, to alter or

42

amend the judgment, or to grant a new trial. R.115, Order, PageID 51115130.
Dr. Khalaf subsequently filed an appeal of the district court's remittitur,
while defendants cross-appealed the district court's denial of their motions for
JMOL or a new trial.8
II. DISCUSSION
We focus our discussion on the motion for judgment as a matter of law
because its resolution is dispositive of this appeal. We review a district court's
denial of a JMOL motion de novo. Barnes v. City of Cincinnati, 401 F.3d 729,
736 (6th Cir. 2005). We consider “the evidence in the light most favorable to
the non-moving party.” Noble v. Brinker Int'l, Inc., 391 F.3d 715, 720 (6th
Cir. 2004) (internal quotations omitted). Judgment as a matter of law is
appropriate if “there is no genuine issue of material fact for the jury, and
reasonable minds could come to but one conclusion, in favor of the moving
party.” Id. (internal quotations omitted).
“When reviewing the facts of a discrimination claim after there has been a
full trial on the merits,” this court will consider the “evidentiary
underpinnings of a plaintiff's prima facie case” to decide whether the
“plaintiff has proven [his] case by a preponderance of the evidence.” Barnes,
401 F.3d at 736 (original brackets omitted). This review “focus[es] on the
ultimate question of [the existence of] discrimination rather than on whether
a plaintiff made out a prima facie case.” Id.

43

A. Alleged Hostile Work Environment
First, we consider the hostile-work-environment claims alleged against
Ford (based on the actions of Dr. Khalaf's subordinates) and Fowler (Dr.
Khalaf's supervisor). The jury found that (1) Dr. Khalaf's subordinates had
subjected him to a hostile work environment based on national origin or race
(thereby implicating Ford as a corporation); and (2) Fowler had subjected Dr.
Khalaf to a hostile work environment based on national origin, but not race.
However, the jury also found that neither Ford's corporate conduct nor Zhou's
individual conduct had subjected Dr. Khalaf to a hostile work environment.
For the reasons discussed below, we hold that the evidence is insufficient
to support a finding of defendants’ liability on Dr. Khalaf's claims of hostile
work environment. Therefore, we REVERSE the district's court's denial of
defendants’ motion for JMOL on these claims.
To allege a hostile work environment claim based on race or national
origin under Title VII or the ELCRA, a plaintiff must demonstrate that “(1)
[he] belongs to a protected class; (2) [he] was subject to unwelcome
harassment; (3) the harassment was based on race [or national origin]; (4) the
harassment affected a term, condition, or privilege of employment; and (5)
the defendant knew or should have known about the harassment and failed
to take action.” Phillips v. UAW Int'l, 854 F.3d 323, 327 (6th Cir. 2017); see
Boutros v. Canton Reg'l Transit Auth., 997 F.2d 198, 203 (6th Cir. 1993)
(applying analysis to national-origin based claim); see also Phillips, 854 F.3d

44

at 327 n.3 (“The elements are substantially the same for [the] ELCRA
claim.”); Quinto v. Cross & Peters Co., 451 Mich. 358, 547 N.W.2d 314 (1996).
When evaluating these claims, this court “look[s] at the totality of the alleged
[ ] harassment to determine whether it was ‘sufficiently severe or pervasive to
alter the conditions of [a plaintiff's] employment and create an abusive
working environment.’ ” Phillips, 854 F.3d at 327 (quoting Williams v. CSX
Transp. Co., 643 F.3d 502, 512 (6th Cir. 2011) (alteration in original) (quoting
Harris v. Forklift Sys., Inc., 510 U.S. 17, 21, 114 S.Ct. 367, 126 L.Ed.2d 295
(1993))). The circumstances we consider include “the frequency of the
discriminatory conduct; its severity; whether it is physically threatening or
humiliating, or a mere offensive utterance; and whether it unreasonably
interferes with an employee's work performance.” Phillips, 854 F.3d at 327
(quoting Nat'l R.R. Passenger Corp. v. Morgan, 536 U.S. 101, 116, 122 S.Ct.
2061, 153 L.Ed.2d 106 (2002) (internal citation omitted)).
“[T]his court has established a relatively high bar for what amounts to
actionable discriminatory conduct under a hostile work environment theory.”
Phillips, 854 F.3d at 328. “[O]ccasional offensive utterances do not rise to the
level required to create a hostile work environment because, ‘[t]o hold
otherwise would risk changing Title VII into a code of workplace civility.’ ” Id.
at 327 (quoting Grace v. USCAR, 521 F.3d 655, 679 (6th Cir. 2008)). For
example, in the context of alleged racial discrimination, this court has
determined that “even offensive and bigoted conduct is insufficient to

45

constitute a hostile work environment if it is neither pervasive nor severe
enough to satisfy the claim's requirements.” Id. at 328; see also Clay v. United
Parcel Service, 501 F.3d 695, 707–08 (6th Cir. 2007).
Ford disputes Dr. Khalaf's surviving hostile-work environment claims
against his subordinates and Fowler. As to the charges against Dr. Khalaf's
subordinates, Ford argues that he failed to present any evidence that their
alleged harassment of him was “based on race [or national origin],” Phillips,
854 F.3d at 327, and relatedly, that he failed to introduce proof indicating the
allegedly discriminatory harassment by his subordinates was sufficiently
“pervasive [or] severe enough.” Williams, 643 F.3d at 506, 513; see also Clay,
501 F.3d at 707–08. As to Dr. Khalaf's claim against Fowler, Ford argues that
Fowler's alleged criticism of Dr. Khalaf's English skills is insufficient
evidence of national-origin discrimination. We address this proof in more
detail below.

46

1. Hostile Work Environment Allegedly Created by Dr. Khalaf's
Subordinates
a. Absence of Harassment “Based on Race or National Origin”
In support of his claim of harassment by his subordinates, Dr. Khalaf
described specific instances of “disrespect” by employees Jim Miller, Les
Javor, and Pauline Burke. R.135, 3.14. Tr., PageID 5733. According to Dr.
Khalaf, Miller hung “up the phone on [him] two or three times,” and “when
[Dr. Khalaf] would give [Miller] an assignment, [Miller] would say do it
yourself.” Id. at PageID 5733-5734. In addition, Dr. Khalaf described how
Javor was “[v]ery disrespectful” towards him, and “did not accept
assignments from [him].” Id. at PageID 5737. Dr. Khalaf also testified that
“Burke had an issue with [his] performance review comments made to her”
and “would not be happy with [him]” unless he changed them. Id. at PageID
5762, 5783–5784; R.139, 3.21.Tr., PageID 6657–6660; R.140, 3.22.Tr., PageID
6728–6729; see also Appellant's Br. at 10-12.
Dr. Khalaf further referenced anonymous comments submitted by Ford
employees in a survey circulated by Ford at the end of 2012. In these
responses, as Dr. Khalaf notes, several individuals submitted “ ‘extremely
disrespectful and hostile comments’ about [his] English-language skills.”
R.135, 3.14.Tr., PageID 5741-5743. However, Dr. Khalaf admits that these
comments were directed specifically to his “writing and understanding” of
English, and did not reference his speech or accent.9 Id.

47

Although, subjectively, these statements from subordinates could have
been offensive to Dr. Khalaf, none of these alleged incidents of disrespect10
demonstrates that his subordinates made any comments because of Dr.
Khalaf's Lebanese origin or Middle Eastern ethnicity, as required for him to
prove a hostile work environment.
Title VII does “not prohibit all verbal or physical harassment in the work
place; it is directed only at ‘discriminat[ion] ... because of’ ” protected
characteristics under the statutes. Oncale v. Sundowner Offshore Servs., Inc.,
523 U.S. 75, 80, 118 S.Ct. 998, 140 L.Ed.2d 201 (1998). Mere disrespect or
antipathy will not be actionable under the statute unless a plaintiff can prove
that such was motivated by discriminatory animus. See id. The “conduct of
jerks, bullies, and persecutors is simply not actionable under Title VII unless
they are acting because of the victim's [protected status].” Wasek v. Arrow
Energy Servs., Inc., 682 F.3d 463, 467 (6th Cir. 2012).
When denying defendants’ JMOL motion, the district court did acknowledge
that “the bulk of the evidence presented demonstrated disrespect by [Dr.
Khalaf's] subordinates.” R.115, JMOL Order, PageID 5120. Such disrespect,
standing alone, is not enough to show unlawful discrimination. But, the
district court deemed significant one “anonymous comment left in a drop box
[by a Ford employee] that criticized [Dr. Khalaf's] ‘writing and understanding
English.’ ” R.115, JMOL Order, PageID 5120. Although this comment made

48

no explicit mention of Dr. Khalaf's English speaking abilities, the district
court considered the comment to be “relat[ed] to [Dr. Khalaf's] accent.” Id.
As

noted

above,

we

have

held

that

in

certain

circumstances,

discrimination based on accent “can be national origin discrimination.” Ang v.
Procter & Gamble Co., 932 F.2d 540, 549 (6th Cir. 1991) (citing Berke v. Ohio
Dep't of Pub. Welfare, 628 F.2d 980, 981 (6th Cir. 1980) (per curiam)).
However, this is a fine line, and each factual scenario must be evaluated
contextually, considering that “[u]nlawful discrimination does not occur ...
when a Plaintiff's accent affects his ability to perform the job effectively.” Id.
(citation omitted). For example, in Igwe v. Salvation Army, we concluded that
there was no evidence of national-origin discrimination towards the plaintiffemployee, given that a single comment by another company employee
regarding the plaintiff's “broken speech” related to concern about the
plaintiff's “communication skills,” as opposed to being motivated by
discriminatory animus towards his national origin. 790 F. App'x 28, 36 (6th
Cir. 2019). Similarly here, the comments about Dr. Khalaf's English skills
(which did not reference Dr. Khalaf's accent) related to frustration expressed
by Dr. Khalaf's subordinates about their manager's ability to manage and
communicate clearly with them in preparation for the weekly BPR
meetings—a critical activity performed by the group. Because clear
communication skills are a fundamental skillset required of managerial
positions across the United States, and such ability was a necessary part of

49

Dr. Khalaf's specific role as QS&PP Department Manager, there is simply no
basis, without more evidence, to infer that the comments were motivated by
discriminatory animus.
Nor is there legal merit to Dr. Khalaf's alternative argument for finding
discrimination by his subordinates, which he calls a “differential treatment”
theory. He claims that his subordinates treated him differently as compared
to how they treated his “predecessor Mike Hardy—who is white and
American born.” Appellant's Resp. 15. As foundation for this argument, he
references (1) his testimony that Les Javor had a “smooth relationship” with
Hardy, 4.135, 3.14.Tr., PageID 5735; and (2) Michelle Dietlin's testimony that
Jim Miller “wasn't interested in doing work that wasn't specifically requested
by Mike Hardy.” R.136, 3.15.Tr., PageID 5953.
This court has held that a comparison between one member of a protected
class and one employee outside of that protected class is not “comparative
evidence about how the alleged harasser[s] treated members of both races in
a mixed-race workplace.” Williams, 643 F.3d at 511 (emphasis added).
Furthermore, none of the cases referenced by Dr. Khalaf supports the theory
that differential treatment of only two individuals, as compared to
differential treatment of all individuals in the relevant racial categories,
demonstrates discriminatory animus under a “differential treatment” theory.
Finally, the two pieces of testimony about Javor and Miller do not
demonstrate that the subordinates refused assignments on account of Dr.

50

Khalaf's race or national origin. In fact, this testimony leaves open a number
of non-discriminatory rationales to account for the feelings expressed by the
employees, including potentially the fact that they simply preferred Mike
Hardy's management style.
Therefore, we determine that Dr. Khalaf failed to introduce sufficient
evidence to allow a reasonable jury to find the requisite discriminatory
animus from his subordinates based on race or national origin.
b. Absence of Sufficiently “Pervasive” or “Severe” Discriminatory
Harassment
In addition to the absence of proof of discriminatory animus, there is
another reason why Dr. Khalaf lacks sufficient evidentiary support for his
claim of hostile work environment created by his subordinates. He did not
introduce evidence that would allow a reasonable jury to find that he was
subjected to harassment that was widespread and significant enough to give
rise to a claim.
“A hostile work environment occurs ‘[w]hen the workplace is permeated
with discriminatory intimidation, ridicule, and insult that is sufficiently
severe or pervasive to alter the conditions of the victim's employment and
create an abusive working environment.’ ” Bowman v. Shawnee State Univ.,
220 F.3d 456, 463 (6th Cir. 2000) (citation omitted; alteration in original); see
also In re Rodriguez, 487 F.3d 1001, 1010-11 (6th Cir. 2007) (evidence of
discrimination based on accent that was sufficient to survive summary

51

judgment on failure-to-promote claim was insufficient to support hostilework-environment claim).
Alleged harassment in the context of a hostile-work environment-claim
must be sufficiently “pervasive” or “severe” to alter the conditions of
employment. Williams, 643 F.3d at 513. This standard sets a high bar for
plaintiffs in order to distinguish meaningful instances of discrimination from
instances of simple disrespect. In this court's determination of whether
conduct clears that bar, we consider various factors, including “ ‘the
frequency of the discriminatory conduct; its severity; whether it is physically
threatening or humiliating, or a mere offensive utterance; and whether it
unreasonably interferes with an employee's work performance.’ ” Id. at 512–
13 (citing Harris, 510 U.S. at 21, 114 S.Ct. 367). “Isolated incidents (unless
extremely serious) will not amount to discriminatory changes in the ‘terms
and conditions of [a plaintiff's] employment.’ ” Id. (citing Faragher v. City of
Boca Raton, 524 U.S. 775, 788, 118 S.Ct. 2275, 141 L.Ed.2d 662 (1998)).
“Occasional offensive utterances do not rise to the level required to create a
hostile work environment.” Grace v. USCAR, 521 F.3d 655, 679 (6th Cir.
2008). “To hold otherwise would risk changing Title VII into a code of
workplace civility, a result we have previously rejected.” Id. (citation
omitted).
The alleged comments of Dr. Khalaf's subordinates regarding his “writing
and understanding” of English, do not rise to the level of hostility based on

52

national origin to trigger Title VII or ELCRA liability. R.135, 3.14.Tr.,
PageID 5741-5743. The same can be said of the several isolated comments
submitted in one survey conducted by Ford in 2012. That these survey
comments

are

insufficient

to

establish

a

pattern

of

“pervasive”

discrimination, is clear when they are compared to far more problematic
statements in other cases that have been insufficient to establish Title VII
liability. See, e.g., Williams, 643 F.3d at 513 (holding that multiple
“despicable” statements that were “certainly insensitive, ignorant, and
bigoted” did not constitute “severe or pervasive harassment given their
isolated nature and their resemblance to a ‘more offensive utterance’ ”).
Therefore, we determine that Dr. Khalaf failed to introduce sufficient
proof for a reasonable jury to find the requisite “severe and pervasive”
element for the hostile-work-environment claim relating to his subordinates.
2. Hostile Work Environment Allegedly Created by Fowler
Although the jury rejected Dr. Khalaf's claim against Fowler of a racebased hostile work environment, it found that Fowler subjected Dr. Khalaf to
a national-origin-based hostile work environment. The national-origin claim
is a closer call, but we ultimately conclude that Dr. Khalaf presented
insufficient evidence to show that Fowler subjected him to a hostile work
environment based on either race or national origin.
To support the national-origin claim, Dr. Khalaf states that Fowler was
“disrespectful” to him during one-on-one meetings. As QS & PP Department

53

manager, Dr. Khalaf reported directly to Fowler, and therefore was required
to meet on a weekly basis with him. R.135, 3.14.Tr., PageID 7515. According
to Dr. Khalaf, at these weekly sessions, “Fowler frequently exhibited
disrespectful behavior towards [him],” First Appellant Br. at 8, which
included Fowler's “pound[ing] the table with his fist in a hostile manner,
shouting demeaning things such as: ‘[W]hat's wrong with you? Don't you
know English? Don't you understand English? Do I have to spell every time to
you in English? Are you talking down to me? Are you whispering in my ears?’
” Id. (emphases added).
Dr. Khalaf testified that Fowler was “[v]ery hostile” during their one-onone meetings. Fowler stated that he was going to “crush” Dr. Khalaf “like an
ant.” Id. During “those hostile moments,” Dr. Khalaf testified he “would pray
that the earth would open and swallow” him. First Appellant Br. at 8
(quoting R.135, 3.14.Tr., PageID 5717). On other occasions, Fowler would call
Dr. Khalaf up to his office, “only to order him to stop and leave as soon as he
arrived at the door.” First Appellant Br. at 9 (quoting R.135, 3.14.Tr., PageID
5717-5718). And, on “[o]n still other occasions, when Dr. Khalaf brought
documents to Fowler's office, Fowler ‘bark[ed] commands’ to him like ‘a dog’
telling him not to come close, and to ‘drop’ what he ‘ha[d] and leave.’ ” First
Appellant Br. at 9 (quoting R.135, 3.14.Tr., PageID 5718). Fowler's comments
during these encounters made Dr. Khalaf feel “shocked, horrible, humiliated,

54

[and] devastated,” “week after week after week” for months. First Appellant
Br. at 8 (citing R.135, 3.14.Tr., PageID 5717).
Dr. Khalaf alleged further abuse from Fowler at departmental meetings.
On those occasions, Dr. Khalaf's role was to lead the meeting, by both
“setting up the agenda” and running the group “through reports from various
regions.” First Appellant Br. at 10; see R.135, 3.14.Tr., PageID 5722–5723.
However, as Dr. Khalaf explained, Fowler treated him “in a demeaning and
disrespectful manner,” in front of the entire group, including [ ] passing him
notes [and] demanding that Dr. Khalaf leave the meeting to obtain coffee for
[him].” First Appellant Br. at 10; see R.135, 3.14.Tr., PageID 5724-5725.
Similar to his experience during the one-on-one meetings, Dr. Khalaf found
this treatment “to be humiliating,” and he believed “other attendees had the
same reaction to Fowler's conduct.” First Appellant Br. at 10; see R.135,
3.14.Tr., PageID 5724–5728. This behavior continued “every week for
months,”

and

Dr.

Khalaf

contends

it

constituted

national-origin

discrimination because he “was the only person of Middle Eastern descent in
those meetings—and the only person Fowler asked to fetch him coffee.” First
Appellant Br. at 10; see R.135, 3.14.Tr., PageID 5726.
Dr. Khalaf was understandably upset by Fowler's behavior. But, was
there enough proof for a reasonable jury to find a hostile work environment
based on Dr. Khalaf's national origin? We conclude there was not, based on
the applicable case law, as we explained below.

55

We turn first to whether the evidence of Fowler's criticism of Dr. Khalaf's
English skills is sufficient to support the jury's finding of a hostile work
environment. We understand that “accent and national origin” are
overlapping concepts, and in some circumstances can be “inextricably
intertwined.” Ang, 932 F.2d at 549. Or, in other words, “discrimination based
on manner of speaking can be national origin discrimination.” Id.
For example, in Rodriguez, we held that a plaintiff had demonstrated a
prima facie case of national-origin discrimination sufficient to survive
summary judgment on a failure-to-promote claim. The plaintiff proffered
evidence that the decision-maker in her company had made “derogatory
remarks about [her] accent and ethnicity and statements to the effect that
[the decision-maker] ‘would not allow her to become a supervisor ... because
of [her] Hispanic speech pattern and accent.’ ” 487 F.3d at 1006. Similarly, in
Berke, we found sufficient evidence for a plaintiff's failure-to-promote claim,
concluding that “plaintiff was denied two positions ... because of her accent
which flowed from her national origin.” 628 F.2d at 981.
However, both Rodriguez and Berke involved plaintiffs who offered
evidence that they were denied promotions on direct account of accent-based
national origin discrimination by corporate decision-makers. Our court
recognizes the difference between discriminatory animus motivating accentbased comments directed at an employee, as in Rodriguez and Berke, and
situations “when a [p]laintiff's accent affects his ability to perform the job

56

effectively,” when criticism of English skills does not constitute unlawful
discrimination. Ang, 932 F.2d at 549; see also Igwe, 790 F. App'x at 36
(determining that in certain contexts where a job requires a specific skillset,
it is not unlawful to complain of an employee's “communication skills––
whether related to his national origin or not”). Other circuits have also
recognized the difference between comments motivated by discriminatory
intent and legitimate job-specific-related critiques. See, e.g., Hannoon v.
Fawn Eng'g Corp., 324 F.3d 1041, 1048 (8th Cir. 2003); Bina v. Providence
Coll., 39 F.3d 21, 26 (1st Cir. 1994) (“references to audience difficulty in
understanding [plaintiff] may reasonably be interpreted as expressing a
concern about his ability to communicate to students rather than
discriminatory animus based on ethnicity or accent”); Fragante v. City & Cty.
of Honolulu, 888 F.2d 591, 596–97 (9th Cir. 1989) (“[t]here is nothing
improper about an employer making an honest assessment of the oral
communications skills of a candidate for a job when such skills are
reasonably related to job performance”) (emphasis omitted).
Dr. Khalaf presents no evidence that Fowler's statements included any
criticism of Dr. Khalaf's accent. Dr. Khalaf also fails to provide any relevant
context regarding the referenced statements by Fowler that would allow a
reasonable jury to find discriminatory animus. There is no proof that could
help a jury and this court assess what motivated the comments.
Undoubtedly, Dr. Khalaf's role as QS&PP Department Manager required

57

that he communicate clearly with the team he managed, as well as with
Fowler.
And, while Dr. Khalaf was offended by Fowler's comments, a plaintiff's
mere subjective offense does not rise to the situations we deemed
“discriminatory” in Rodriguez or Berke. The plaintiffs in both those cases
presented evidence that their accents were the source of their superiors’
decisions to deny them job promotions.
Based on those cases, Dr. Khalaf needed to present proof to allow a
reasonable inference that Fowler's remarks about Dr. Khalaf's English were
really about Dr. Khalaf's accent. Then, Dr. Khalaf would have to offer
evidence to allow a reasonable inference that criticism of his accent was
related or motivated by Fowler's animus towards Dr. Khalaf's Lebanese
national origin. This, Dr. Khalaf did not do.
Fowler's derogatory statements, though abusive, were not enough to
establish a hostile work environment based on Fowler's national origin. Rude,
yes; discriminatory, no. Therefore, we hold that there was insufficient
evidence to conclude that Fowler's criticism of Dr. Khalaf's English skills and
other comments constituted national-origin discrimination.
B. Alleged Retaliation
Next, we consider the claims of alleged retaliation against Dr. Khalaf
through his demotion, placement on a PEP, and alleged termination. As
noted, the jury found that Dr. Khalaf had been subjected to retaliatory

58

demotion by Ford and Fowler, retaliatory placement on a PEP by Zhou, and
retaliatory termination by Ford.
To demonstrate a prima facie case of retaliation under Title VII and the
ELCRA, the plaintiff bears the initial burden of establishing that “(1) he ...
engaged in protected activity, (2) the employer knew of the exercise of the
protected right, (3) an adverse employment action was subsequently taken
against the employee, and (4) there was a causal connection between the
protected activity and the adverse employment action.” Beard v. AAA of
Mich., 593 F. App'x 447, 451 (6th Cir. 2014) (quoting Niswander v. Cincinnati
Ins. Co., 529 F.3d 714, 720 (6th Cir. 2008)); see also Wade v. Knoxville Utils.
Bd., 259 F.3d 452, 464 (6th Cir. 2001) (retaliation claims under Section 1981
governed by same standards as Title VII). “[W]hen it comes to federal
antidiscrimination laws like § 1981 ... a plaintiff must demonstrate that, but
for the defendant's unlawful conduct, [the] alleged injury would not have
occurred.” Comcast Corp. v. Nat'l Ass'n of African Am.-Owned Media, –––
U.S. ––––, 140 S. Ct. 1009, 1014, 206 L.Ed.2d 356 (2020) (“This ancient and
simple ‘but for’ common law causation test, we have held, supplies the
‘default’ or ‘background’ rule against which Congress is normally presumed to
have legislated when creating its own new causes of action.”).
Furthermore, “the Supreme Court ... made clear that the scope of Title
VII's retaliation provision is broader than that of Title VII's discrimination
provision.” Niswander, 529 F.3d at 720 (citing Burlington Northern & Santa

59

Fe Railway Co. v. White, 548 U.S. 53, 126 S.Ct. 2405, 165 L.Ed.2d 345
(2006)); see also Civil Rights Act of 1964, §§ 703(a), 704(a), 42 U.S.C. §§
2000e–2(a), 2000e–3(a). “In contrast to Title VII's discrimination provision,
the ‘adverse employment action’ requirement in the retaliation context is not
limited to an employer's actions that affect the terms, conditions, or status of
employment, or those acts that occur in the workplace.” Id. (citing Burlington
N., 548 U.S. at 62–66, 126 S.Ct. 2405). “The retaliation provision instead
protects employees from conduct that would have ‘dissuaded a reasonable
worker from making or supporting a charge of discrimination.’ ” Niswander,
529 F.3d at 720 (quoting Burlington N., 548 U.S. at 60, 126 S.Ct. 2405).
1. Alleged Retaliatory Demotion of Dr. Khalaf by Fowler
We first address whether there is sufficient evidence that would allow a
reasonable jury to find that Dr. Khalaf's encouragement of Burke to file a HR
complaint against Buche in February 2013 qualified as a “protected activity”
under Title VII and the ELCRA. Dr. Khalaf claims that he instructed Pauline
Burke, following her phone exchange with David Buche, to file a claim with
HR. R.79-8, PX16, PageID 2469 (“I have asked Pauline to file a claim with
you because she made accusation over a discussion she had with David [ ]”).
Dr. Khalaf contends that Fowler “retaliated” against this “protected activity”
in March 2013 by replacing him with Jay Zhou (a higher-level LL3 employee)
as Lead QFL responsible for overseeing the QS&PP Department. As a result

60

of Zhou's appointment, Dr. Khalaf was relieved of his former responsibility of
managing the Quality Analysts. R. 79-11, PX24, PageID 2480; DX70, App.1.
For a plaintiff to demonstrate a qualifying “protected activity,” he must
show that he took an “overt stand against suspected illegal discriminatory
action.” Blizzard v. Marion Tech. Coll., 698 F.3d 275, 288 (6th Cir. 2012)
(citations omitted). “In other words, an employee ‘may not invoke the
protections of the Act by making a vague charge of discrimination.’ ” Id.
(quoting Fox v. Eagle Distrib. Co., 510 F.3d 587, 591 (6th Cir.2007) (quoting
Booker v. Brown & Williamson Tobacco Co., 879 F.2d 1304, 1313 (6th
Cir.1989) (holding that complaints about “ethnocism” were too vague to
constitute protected activity))).
With this legal standard in mind, we find that Willoughby v. Allstate
Insurance Co., offers a comparable set of facts to what occurred here. In
Willoughby, the plaintiff claimed he had engaged in a “protected activity”
when he sent a three-page letter to his employer following his demotion,
which “mention[ed] three previous sexual harassment complaints against”
another employee and discussed general unhappiness amongst white
employees at his company. 104 F. App'x 528, 530–31 (6th Cir. 2004).
Although the plaintiff had mentioned “sexual harassment” in his letter,
which could be indicative of his taking a stand against such, we dismissed his
complaint because the letter was not actually “asserting discrimination,” but
rather was intended primarily to “impeach the other employee's credibility”

61

and “contest[ ] the correctness of a decision made by his employer. ...” Id.
(concluding that the “vague charge of discrimination in [[the employee's]
internal letter] is insufficient to constitute opposition to an unlawful
employment practice”) (quoting Booker, 879 F.2d at 1313).
Dr. Khalaf's report to Ford's HR Department said even less about
discrimination than did the letter in Willoughby. Dr. Khalaf's report did not
even explicitly characterize Burke as having been “sexually harassed.” Nor
did Dr. Khalaf ever state that he had instructed Burke to file a sexual
harassment or sexual discrimination complaint. Rather, immediately after
the incident occurred, Dr. Khalaf indicated that he had “asked Pauline
[Burke] to file a claim with [HR] because she made an accusation over a
discussion she had with David Buche yesterday.” R.79-7, PX15, PageID 2458;
R. 79-8, PX26, PageID 2469. Dr. Khalaf's statements were not enough for a
reasonable juror to conclude that Dr. Khalaf charged “illegal discriminatory
action,” as to which he was taking a direct stand. Blizzard, 698 F.3d at 288.
There was insufficient evidence to show that Dr. Khalaf's action in
response to the February 2013 telephone call was “protected activity” under
Title VII or the ELCRA. We therefore REVERSE the district court's denial of
JMOL on Dr. Khalaf's retaliatory demotion claim.

62

2. Zhou's Alleged Retaliatory Placement of Dr. Khalaf on a
Performance Enhancement Plan
The jury determined that Zhou, but not Ford or Fowler, retaliated against
Dr. Khalaf by placing him on a PEP. We conclude that this finding was not
supported by the evidence based on an evaluation of the undisputed timeline
related to Dr. Khalaf's employment, which indicates no connection between
Dr. Khalaf's alleged protected activities and Zhou's PEP decision.
Dr. Khalaf encouraged Burke to report the phone incident to HR in
February 2013, and he filed his harassment complaint against Fowler and
Zhou on April 4, 2014. There is no evidence that either of these acts had any
impact on Zhou's decision to place Dr. Khalaf on a PEP. The latter decision
was actually made in March 2014, based on documented evidence of Dr.
Khalaf's sub-par job performance.
As Dr. Khalaf's counsel conceded at trial, Zhou's imposition of the PEP
had nothing to do with the Burke complaint because Zhou was not Dr.
Khalaf's supervisor at the time of the complaint: “I'm not going to try to ask
the jury to find liability against Zhou for the Pauline Burke complaint; it was
before his time.” R.141, 3.26.Tr., PageID 6998. Indeed, Zhou joined the
QS&PP Department in August 2013, six months after the Burke-Buche
phone incident occurred. See id; DX70, App. 1. Retaliation requires proof
“that the individuals charged with taking the adverse employment action
knew of the [plaintiff's] protected activity,” Mulhall v. Ashcroft, 287 F.3d 543,

63

551–52 (6th Cir. 2002), and there is simply no evidence that Zhou even was
aware of Burke's complaint to HR and Dr. Khalaf's actions related to that
complaint.
Dr. Khalaf contends that another relevant protected activity motivating
Zhou's decision to place him on the PEP was the email he sent to HR
manager Wendy Warnick in June 2013.11 See R.37-14, PX 26 PageID 11761180. Attempting to support the connection between the email and his
eventual placement on a PEP, Dr. Khalaf references the response made by
HR supervisor Mike Lank to Dr. Khalaf's question for why he was being
placed on a PEP, where Lank stated “you had your chance when you filed
your complaint.” R.135, 3.14.Tr., PageID 5789. According to Dr. Khalaf, this
comment alone is sufficient evidence to support the jury's conclusion that
Zhou's imposition of the PEP represented retaliation for Dr. Khalaf's
protected activity. However, we find no merit in this argument either.
The contents of Dr. Khalaf's email to Warnick and the alleged connection
Dr. Khalaf attempts to draw between its transmission and Mike Lank's
statement appear tenuous and unclear. As we noted above, in the context of
protected conduct claims, employees “may not make[ ] vague charge[s] of
discrimination.” Blizzard 698 F.3d at 275 (quoting Fox, 510 F.3d 587 (quoting
Booker, 879 F.2d at 1313)). Therefore, it is questionable whether the email, in
which Dr. Khalaf described what he perceived as the sub-optimal behaviors
of his subordinates, constituted a protected activity in the first place, given

64

that not once did Dr. Khalaf describe an instance of actual discrimination
directed towards him based on his race or national origin. R.37-14, PX 26
PageID 1176-1180. Instead, Dr. Khalaf only described what he perceived to
be instances of subordinates’ disrespect, sub-par work quality, and
defensiveness, none of which he explicitly connected to being motivated by
subordinates’ animus towards his race or national origin. For example, Dr.
Khalaf described one subordinate, “Kim,” as “[v]ery defensive when a
comment or question is raised to a person in [her] section.” R.37-14, PX 26
PageID 1179. He described the performance of another subordinate, “Shari,”
as “[a]lways requr[ing] direction,” and characterized her leadership as
“aggressive” and “show[ing] a lack of respect.” Id. Similarly, Dr. Khalaf
explained that the leadership qualities of another subordinate, “Jim,”
included his “[h]aving tendency to get unpolite, nervous, and aggressive in
his lack of respect to others including his manager.” Id.
However, even under the assumption that the email represented a valid
protected activity, Dr. Khalaf must show proof that Zhou, the decision-maker
on the PEP, “knew of the protected activity,” Mulhall v. Ashcroft, 287 F.3d
543, 551-52, which Dr. Khalaf fails to do. The dearth of evidence showing
Zhou had of knowledge of the email is further demonstrated by the facts that
(1) the email was addressed to Warnick alone; and (2) the email was
delivered in June 2013, two months before Zhou joined the Department. R.3714, PX26, PageID 1176; see also DX 70, App. 1. Finally, Dr. Khalaf fails to

65

show the requisite causality between the June 2013 email and his April 2014
placement on a PEP—an act that occurred ten months later. Lank's comment,
without more, is irrelevant, as Dr. Khalaf has shown no connection between
the comment and the action of Zhou, the decision-maker here. Furthermore,
for causation to be shown between an alleged protected activity and the
retaliatory action, “the temporal proximity must be ‘very close.’ ” Clark
County School Dist. v. Breeden, 532 U.S. 268, 273, 121 S.Ct. 1508, 149
L.Ed.2d 509 (2001). That nexus is clearly not met here, given the ten-month
span separating the complaint and the PEP. For these reasons, there is no
evidence from which a reasonable jury could find a connection between Dr.
Khalaf's June 2013 email to Warnick and the imposition of the PEP.
Finally, there is no evidence from which a reasonable jury could find a
connection between Dr. Khalaf's complaint against Fowler and Zhou and the
imposition of the PEP. Consider the undisputed chronology of events that
occurred relating to the PEP decision. Although Dr. Khalaf notes that his
official placement on a PEP (on April 23, 2014) occurred after he filed the
April 4, 2014 complaint with HR, there is no evidence in the record from
which a reasonable juror could have found that the PEP was caused by Dr.
Khalaf's complaint. The basis for the PEP dated back to November 2013,
when Zhou met with Dr. Khalaf about his performance review. Zhou
indicated that Dr. Khalaf was “trending towards a lower achiever & he is
expected to improve & sustain expected behaviors.” R.79-16, PX39, PageID

66

2506. At that time, Zhou warned Dr. Khalaf that “[i]f there [was] not
sustained improvement,” Dr. Khalaf would “be placed on a PEP.” Id.; see also
R.137. 3.19.Tr., PageID 6261-6262; R.135, 3.14.Tr., PageID 5773-5775.
Following this review, Zhou testified, he tried to help Dr. Khalaf improve the
noted deficiencies in his job performance, particularly his leadership skills.
Zhou even “went through Ford[’s] website to try to find resource[s] ... for the
leadership and development and communications skills development,” which
he shared with Dr. Khalaf. R.137, 3.19.Tr., PageID 6262. However, Zhou
testified that he met with Dr. Khalaf again in January 2014, and at this
meeting Dr. Khalaf “didn't own [his leadership issues]” or “take responsibility
on the items highlight[ed] in the performance review.” R.137, 3.19.Tr.,
PageID 6265. Instead, according to Zhou, Dr. Khalaf placed blame on his
subordinates.
Meanwhile, despite this initial performance review and follow-up, the
relationship between Dr. Khalaf and his team of department employees failed
to improve. Dr. Khalaf's management problems were the focus of a March
2014 meeting between department employees and Zhou. It was a “very, very
painful discussion,” Zhou testified, in which “everybody complained about ...
the leadership behaviors of [Dr. Khalaf] and how people are mistreated.”
Based on these negative responses, Zhou concluded that the “team [had been]
destroyed” by Dr. Khalaf. That same month, Zhou made the decision to
institute the PEP for Dr. Khalaf. R.137, 3.19.Tr., PageID 6214. In order to

67

officially process the decision, Zhou had to work with HR through late-March
2014, which required that he and HR representatives finalize the wording of
the PEP. Id. at PageID 6213. On April 2, 2014, HR then sent an email to
Zhou approving the final version of the PEP and instructing him that it was
“Ok to move forward with delivery” of the PEP on Friday, April 4. R.140,
3.22.Tr. PageID 6851; R.82-5, DX132, PageID 2902. However, on the morning
of April 4, 2014, Dr. Khalaf unexpectedly cancelled his scheduled meeting
with Zhou, meaning Zhou was unable to deliver the PEP that day. R.82-5,
DX135, PageID 2909. That afternoon Dr. Khalaf sent an email to HR
complaining about the alleged harassment by Fowler and Zhou. R.79-24,
PX64, PageID 2536.
“To establish a causal connection between the protected activity and the
adverse employment action, a plaintiff must present evidence ‘sufficient to
raise the inference that [his] protected activity was the likely reason for the
adverse action.’ ” In re Rodriguez, 487 F.3d 1001, 1011 (6th Cir. 2007)
(quoting Walcott v. City of Cleveland, 123 F. App'x 171, 178 (6th Cir. 2005)
(quoting EEOC v. Avery Dennison Corp., 104 F.3d 858, 861 (6th Cir.1997))).
There was no proof presented at trial to allow for a reasonable inference
that the PEP resulted from Dr. Khalaf's complaint about Fowler and Zhou.
The district court acknowledged the specific sequence of events outlined
above, even recognizing that (1) Zhou did not become Dr. Khalaf's manager
until months after Dr. Khalaf's actions related to the Burke complaint in

68

February 2013; and (2) that “the PEP paperwork was processed before [Dr.
Khalaf] made his April 2014 harassment complaint” about Zhou and Fowler.
R.115, JMOL Order, PageID 5122 (emphasis added). Nonetheless, the court
denied judgment as a matter of law to Zhou, rationalizing that “the evidence
at trial demonstrated a continuous course of conduct aimed at [Dr. Khalaf]
following his protected activity.” Id. Respectfully, we believe the district court
did not adequately account for the lack of evidence that Zhou actually knew
about Dr. Khalaf's first protected activity (encouraging Burke to report the
February 2013 call sexual harassment incident) or second protected activity
(the June 2013 email) or that the PEP had anything to do with the third
protected activity (reporting alleged harassment under Fowler and Zhou to
HR).
Ultimately then, because there was no evidence to support a continuous
course of retaliatory conduct aimed at Dr. Khalaf following any protected
activity, there was no basis for a reasonable jury to find the requisite
causation for Dr. Khalaf's retaliation claim. Therefore, we REVERSE the
district court's denial of JMOL on Dr. Khalaf's retaliatory PEP claim against
Zhou.
3. Dr. Khalaf's Alleged Retaliatory Termination by Ford
Finally, Ford argues that it is entitled to JMOL on Dr. Khalaf's retaliatory
termination claim.

69

Ford advances two arguments: (1) that undisputed evidence shows that
Dr. Khalaf was not actually terminated; and (2) alternatively, that even if he
had been terminated, Dr. Khalaf's undisputed refusal to take the job offered
to him by Ford constituted a legitimate, non-retaliatory reason for Dr.
Khalaf's termination. We agree with Ford's first argument and do not
address the second.
Dr. Khalaf was on a medical leave of absence from June 28, 2014 through
July 13, 2015. R.135, 3.14.Tr., PageID 5824. Dr. Khalaf ended his leave of
absence after his benefits under his disability plan terminated.
Ford then conducted a generalized search for open positions suitable for
Dr. Khalaf's experience and skillset; however, Ford was unable to identify
any available jobs at Dr. Khalaf's old management level (LL5) and made this
clear to Dr. Khalaf. Id. at 5824-5826; R.80-14, PX132, PageID 2597. Dr.
Khalaf even conducted a search himself and could not identify any available
managerial jobs at his former LL5 level, only finding non-management LL6
positions. R.136, 3.15.Tr., PageID 5909-5911. Ford then offered Dr. Khalaf an
LL6 job, with an August 31, 2015 deadline for acceptance. Though this was a
lower level position than Dr. Khalaf previously held, Ford indicated that the
job would be at the same rate of pay as Dr. Khalaf's prior LL5 job. R. 135,
3.14.Tr., PageID 5806-5807, 5824-5825; R.80-12, PX122, PageID 2587; R.8014, PX132, PageID 2597. But, on August 28, Dr. Khalaf rejected Ford's job
offer and he accepted a position with another Michigan-based corporation,

70

BASF. The new job gave Dr. Khalaf a higher salary, as well as a signing
bonus. R.135, 3.14.Tr., PageID 5818, R.136, 3.15.Tr., PageID 5911-5915.
This evidence cited by Ford establishes that Dr. Khalaf cannot establish
his retaliatory-termination claim because Ford offered him the only available
and reasonable job at the time, which Dr. Khalaf refused in order to accept
the BASF job offer. Therefore, Dr. Khalaf was not terminated. See, e.g., Green
v. Brennan, ––– U.S. ––––, 136 S. Ct. 1769, 1777, 195 L.Ed.2d 44 (2016) (“An
ordinary wrongful discharge claim ... has two basic elements: discrimination
and discharge.”) (emphasis added); Evans v. Davie Truckers, Inc., 769 F.2d
1012, 1014 (4th Cir. 1985) (concluding that the “evidence clearly established
that [the employee] voluntarily resigned his employment with the defendant,
[he] suffered no adverse employment action at the hand of the defendant”).
“The sine qua non of a discharge case is, of course, a discharge.” 1 B.
Lindemann, et al., Employment Discrimination Law 21–33 (5th ed. 2012).
The district court recognized this logic when it initially announced its
intention to direct a verdict in favor of Ford. R.143, 3.28.Tr., Page ID 72377238. However, a year later, the court reversed its initial view on the
question of Dr. Khalaf's termination. R.115, JMOL Order, PageID 5117. In
denying Ford's motion for JMOL, the court cited Dr. Khalaf's perception that
the job offered by Ford (1) was not at the same grade as his pre-disability job,
and therefore could potentially affect Dr. Khalaf's future bonuses; and (2)
would alter Dr. Khalaf's seniority date, thus potentially affecting his pension

71

benefits. Id. at PageID 5116. The court also cited Dr. Khalaf's statements of
subjective belief (1) that he would have had to “self-demote to return to work”;
and (2) that, given HR Director Mike Link's testimony “that Ford [had]
offered [Dr. Khalaf] money if he separated,” this offer represented an effective
termination, because in the ordinary course of business “Ford does not offer
money to voluntary quits.” Id. at PageID 5116.
The district court erred in its emphasis on evidence of Dr. Khalaf's
subjective belief unsupported by objective facts. Any reduction in grade or
benefits, or perception of “self-demotion” related to a job, does not indicate
that Dr. Khalaf was actually terminated. Dr. Khalaf's perceptions regarding
his new role were merely assumptions based on his “review and
understanding of Ford policies.” R.135, 3.14. Tr., PageID 5811-5812. In fact,
these assumptions were incorrect, as established by the testimony of a Ford
employee with knowledge about the seniority date that would have been
assigned to Dr. Khalaf. R.140, 3.22.Tr., PageID 6849-6850, 6873-6875.
Therefore, there is no evidence to show that Dr. Khalaf would have lost his
seniority or would have lost his ability to participate in Ford's defined-benefit
plan. R.135, 3.14.Tr., PageID 5811-5812.
If anything, the factors Dr. Khalaf references as demonstrating actual
discharge under Ford would be more appropriate for a “constructive
discharge” claim, Logan v. Denny's Inc., 259 F.3d 558, 569 (6th Cir. 2001).12
However, constructive discharge was never presented by Dr. Khalaf as a

72

theory for the jury to consider. The only question that the jury was asked to
decide relative to Dr. Khalaf's alleged termination was whether he was
actually terminated.
“An actual discharge ... occurs when the employer uses language or
engages in conduct that would logically lead a prudent person to believe his
tenure has been terminated.” Fischer v. Forestwood Co., Inc., 525 F.3d 972,
979 (10th Cir. 2008) (quoting Chertkova v. Connecticut General Life Ins. Co.,
92 F.3d 81, 88 (2nd Cir. 1996)); see also Pennypower Shopping News, Inc. v.
NLRB, 726 F.2d 626, 629 (10th Cir. 1984) (“The test of whether an employee
has been discharged depends on the reasonable inferences that the employee
could draw from the statements or conduct of the employer.”). “An actual
discharge does not occur, however, when the employee chooses to resign
rather than work under undesirable conditions.” Id.
It is undisputed that, after engaging in a search of available positions,
Ford offered Dr. Khalaf a job that he refused. There is no evidence in the
record suggesting that Ford used any “language” or “conduct” that “would
logically lead [Dr. Khalaf] to believe his tenure [had] been terminated.”
Forestwood, 525 F.3d at 979. While Dr. Khalaf may have assumed the new
job offered to him by Ford represented a termination based on his personal
“review and understanding of Ford policies,” R.135, 3.14. Tr., PageID 58115812, as we noted above, these assumptions were incorrect, as established by
the testimony of a Ford employee who possessed knowledge of the new

73

seniority date assigned to Dr. Khalaf. Based on these facts, we hold that no
reasonable juror could have concluded that Dr. Khalaf was actually
discharged based on Ford's actions. See Pennypower Shopping News 726 F.2d
at 629.
Dr. Khalaf's reference to Lank's testimony (where he stated that Ford
does not generally offer severance pay to employees who voluntarily quit, yet
offered severance to Dr. Khalaf) does not change our conclusion. R.140,
3.22.Tr., PageID 6869. This is because Lank qualified his statement,
explaining how the circumstances were different in Dr. Khalaf's unique
situation. Namely, as was the case with Dr. Khalaf upon his return from
disability leave, when a Ford employee's position “goes away” or is no longer
available, and the only replacement position “available” to that employee
requires a reduction in level, then Ford's personnel system classifies the
situation “as an involuntary separation,” which thereby qualifies that
employee for severance benefits. Id. at 6871.
This was the case with Dr. Khalaf because, after conducting its search,
Ford did not locate a position available at Dr. Khalaf's prior LL5
management level—meaning Dr. Khalaf would have necessarily been
reduced to an LL6 position (though that position offered the same salary and
benefits). Therefore, under Ford's internal classification nomenclature, Dr.
Khalaf's rejection of the offer and departure represented “an involuntary
separation,” id. at PageID 6871-6872, meaning Dr. Khalaf would be eligible

74

for “some [severance] pay.” Id. Regardless of Ford's internal classification,
however, it is clear that Dr. Khalaf “was given a choice to take the [Ford]
position and he chose not to,” id. at PageID 6870; instead, he chose to
separate from Ford in order to take a higher paying job at BASF.13
For these reasons, we conclude that there was insufficient evidence to
allow a reasonable jury to find that Dr. Khalaf was actually terminated by
Ford. Therefore, we REVERSE the district court's denial of JMOL on Dr.
Khalaf's retaliatory termination claim.
III. CONCLUSION
In sum, we hold that the district court erred in denying defendants’
motions for judgment as a matter of law. Accordingly, we REVERSE the
district court court's judgment and remand for entry of judgment in favor of
defendants.

I.

Footnotes

1 Sigma is a set of statistical problem-solving tools that are used by
companies, like Ford, to eliminate manufacturing process defects with the
goal of yielding cost savings.
2 Each Ford management employee is assigned to one of six levels. The levels
advance from LL6, which is the lowest level of management, to LL1, which is
the highest, held by those in the position of vice president and above. R.134,
3.13. Tr., PageID 5656.
3 The weekly meetings involved separate sessions with Fowler's QS&PP
Department and with Ford's CEO and his leadership team. R.136, 3.15.Tr.,
Page ID 6094-6104.
4 Dr. Khalaf also notified HR that he had “asked Pauline to file a claim with
HR because she made accusation [sic] over a discussion she had with David
Buche yesterday.” R.79-7, PX15, PageID 2459.
75

5 Ford used the annual “Pulse” surveys to solicit input from employees
regarding their supervisors and workplace. R. 138, 3.20. Tr., PageID 63886390; R. 137, 3.19. Tr., PageID 6167. According to the company, “[t]he Pulse
score is the most reliable process” at Ford “to get the feedback from the
people in the organization.” Id.
6 The parties dispute whether Dr. Khalaf's disability benefits were
terminated or had run out under the terms of Ford's disability plan.
7 This position was located within Ford's Global Quality Organization, the
same group that Dr. Khalaf had formerly worked in as a QS&PP manager.
8 Defendants did not appeal the district court's denial of their motion to alter
or amend the judgment.
9 In addition to the anonymous comments made by his subordinates in the
2012 survey, Dr. Khalaf references on appeal one comment in particular
made by a Ford employee, Rick Radners, that a “[c]ultural block .. prevents
[Dr. Khalaf] from being effective” and that Dr. Khalaf was “[r]aised
differently.” Appellant's. Resp. at 14 (quoting R.80-7, PX81, PageID 2575).
However, this comment was made by Radners in April 2014, after Dr. Khalaf
had ceased managing the group of subordinates (the Quality Analysts), of
which he complained during the trial. See id.; DX70, App.1. Radners was a
Quality Functional Lead, not a Quality Analyst, and Dr. Khalaf never
suggested during his testimony that Radners engaged in any disrespectful
conduct, see R.139, 3.21.Tr., PageID 6517, 6660, nor does he even reference
Radners by name in his appellate briefing. Therefore, we will not conduct an
analysis of Radners's allegedly discriminatory comment towards Dr. Khalaf
because the comment does not represent evidence of discrimination that Dr.
Khalaf claimed at trial supported his claim of harassment by his
subordinates.
10 The evidence Dr. Khalaf presented regarding subordinates’ alleged
harassment consists of largely his own testimony. The only testimony he
presented from others was that of Michelle Dietline, who stated that Dr.
Khalaf's subordinates did “disrespect” him. However, here too, this evidence
does not prove any presence of anti-Arabic or anti-Lebanese bias attributable
to Dr. Khalaf's subordinates. See R.136, 3.15 Tr., PageID 5951-5954, 59835984, 5993.
11 Note that Dr. Khalaf did not reference the email to Warnick in connection
with his retaliatory-PEP claim in his response to defendants’ Rule 50(a)

76

motion before the district court. See R.67, Plaintiff Rule 50(a) Opp., PageID
2361.
12 “To determine if there is a constructive discharge, both the employer's
intent and the employee's objective feelings must be examined.” Id. Our
analysis of the first prong “depends on the facts of each case.” Id. “[W]e
consider the following factors relevant, singly or in combination: (1) demotion;
(2) reduction in salary; (3) reduction in job responsibilities; (4) reassignment
to menial or degrading work; (5) reassignment to work under a younger
supervisor; (6) badgering, harassment, or humiliation by the employer
calculated to encourage the employee's resignation; or (7) offers of early
retirement or continued employment on terms less favorable than the
employee's former status.” Id. Based on the evidence presented by Dr. Khalaf,
it may be questioned whether he would have been even able to demonstrate
evidence of a constructive discharge, but we do not address that issue because
Dr. Khalaf did not raise it.
13 Additional support for Lank's description of Ford's internal personnel
classifications comes from the “Salaried Involuntary Reduction Process
Approval Form” signed by Fowler, Zhou, and other Ford representatives on
September 1, 2015 to document Dr. Khalaf's departure. That form explains
that Dr. Khalaf was offered an LL6 position, but “failed to accept the position
by the specified deadline of 12:00 p m. on August 31, 2015,” and therefore, Dr.
Khalaf was “involuntarily separated from Ford Motor Company.” R.80-14,
PX132, PageID 2597.

77

Case 2:15-cv-12604-MFL-DRG ECF No. 74, PageID.2399 Filed 03/28/18 Page 1 of 4

78

79

80

81

82

